 FEDERAL BUREAU OF PRISONS

ANNUAL FINANCIAL STATEMENTS

     FISCAL YEAR 2012

        U.S. Department of Justice

      Office of the Inspector General

               Audit Division


           Audit Report 13-09

             January 2013

              FEDERAL BUREAU OF PRISONS

             ANNUAL FINANCIAL STATEMENTS

                   FISCAL YEAR 2012


              OFFICE OF THE INSPECTOR GENERAL

                 COMMENTARY AND SUMMARY


       This audit report contains the Annual Financial Statements of the
Federal Bureau of Prisons (BOP) for the fiscal years (FY) ended
September 30, 2012, and September 30, 2011. Under the direction of the
Office of the Inspector General (OIG), KPMG LLP performed the BOP’s audit
in accordance with auditing standards generally accepted in the United
States of America. The audit resulted in an unqualified opinion on the
FY 2012 financial statements. An unqualified opinion means that the
financial statements present fairly, in all material respects, the financial
position and the results of the entity’s operations in conformity with
U.S. generally accepted accounting principles. For FY 2011, the BOP also
received an unqualified opinion on its financial statements (OIG Report
No. 12-09).

      KPMG LLP also issued reports on internal control over financial
reporting and on compliance and other matters. For FY 2012, the auditors
did not identify any significant deficiencies in the Independent Auditors’
Report on Internal Control over Financial Reporting.

      No instances of non-compliance or other matters that are required to
be reported under Government Auditing Standards were identified during the
audit in the FY 2012 Independent Auditors’ Report on Compliance and Other
Matters. Additionally, KPMG LLP’s tests disclosed no instances in which the
BOP financial management systems did not substantially comply with the
Federal Financial Management Improvement Act of 1996.

       The OIG reviewed KPMG LLP’s reports and related documentation and
made necessary inquiries of its representatives. Our review, as
differentiated from an audit in accordance with Government Auditing
Standards, was not intended to enable us to express, and we do not
express, an opinion on the BOP’s financial statements, conclusions about the
effectiveness of internal control, conclusions on whether the BOP’s financial
management systems substantially complied with the Federal Financial
Management Improvement Act of 1996, or conclusions on compliance with
laws and regulations. KPMG LLP is responsible for the attached auditors’
reports dated November 5, 2012, and the conclusions expressed in the



                                     -i-
reports. However, our review disclosed no instances where KPMG did not
comply, in all material respects, with auditing standards generally accepted
in the United States of America.




                                    - ii -
                   FEDERAL BUREAU OF PRISONS

                  ANNUAL FINANCIAL STATEMENTS

                        FISCAL YEAR 2012


                            TABLE OF CONTENTS

                                                                                   PAGE


MANAGEMENT'S DISCUSSION AND ANALYSIS..........................................3


INDEPENDENT AUDITORS’ REPORTS


  REPORT ON FINANCIAL STATEMENTS ................................................ 21


  REPORT ON INTERNAL CONTROL OVER FINANCIAL REPORTING............ 23


  REPORT ON COMPLIANCE AND OTHER MATTERS ................................ 25


PRINCIPAL FINANCIAL STATEMENTS AND RELATED NOTES


  CONSOLIDATED BALANCE SHEETS.................................................... 28


  CONSOLIDATED STATEMENTS OF NET COST ...................................... 29


  CONSOLIDATED STATEMENTS OF CHANGES IN NET POSITION............. 30


  COMBINED STATEMENTS OF BUDGETARY RESOURCES ........................ 32


  NOTES TO THE PRINCIPAL FINANCIAL STATEMENTS ........................... 33


REQUIRED SUPPLEMENTARY INFORMATION


  CONSOLIDATED DEFERRED MAINTENANCE ........................................ 65


  COMBINING STATEMENTS OF BUDGETARY RESOURCES

    BROKEN DOWN BY MAJOR BUDGET ACCOUNT ............................... 66


OTHER ACCOMPANYING INFORMATION


  COMBINED SCHEDULE OF SPENDING ................................................ 71


  TREASURY SYMBOL MATRIX ............................................................. 72


  PRISONER CAPACITY REQUIREMENTS ............................................... 73


  OPERATING LEASES AS OF SEPTEMBER 30, 2012 .............................. 74

This page intentionally left blank. 

U.S. DEPARTMENT OF JUSTICE


      BUREAU OF PRISONS

          MANAGEMENT’S
       DISCUSSION & ANALYSIS
            (UNAUDITED)




                -1-
This page intentionally left blank.




               -2-
                                 U.S. Department of Justice

                                     Bureau of Prisons

                             Management’s Discussion & Analysis



MISSION

It is the mission of the Federal Bureau of Prisons to protect society by confining offenders in the
controlled environments of prisons and community-based facilities that are safe, humane, cost-
efficient, and appropriately secure, and that provide work and other self-improvement
opportunities to assist offenders in becoming law-abiding citizens.

ORGANIZATION STRUCTURE

The Bureau of Prisons (BOP) encompasses the activities of the Trust Fund and appropriated
activities. It does not include the Federal Prison Industries, Inc. (FPI) (also called UNICOR)
which is a separate reporting component of the Department of Justice (DOJ).

As of September 30, 2012, the BOP was comprised of 118 institutions, six regional offices, two
staff training centers, 28 community corrections offices, and a Central Office, or headquarters, in
Washington, D.C. The Executive Office of the Director provides overall direction for agency
operations, with nine central office divisions, each led by a member of the BOP’s Executive
Staff, providing operational and policy direction. The Central Office manages the security and
correctional operations of the BOP, the medical and psychiatric programs, and food and
nutritional programs. Additionally, the Central Office plans for the acquisition, construction,
staffing of new facilities, oversees budget development and execution, contracting, property
management, and financial management. Additional operational support and direction are
provided for community corrections and detention programs, legal counsel, public affairs,
information resources, and human resources management.

The National Institute of Corrections (NIC), one of the BOP’s Salaries and Expenses
activities, provides technical assistance and training for state and local correctional agencies
across the nation. The NIC supports the BOP’s goal of building partnerships with community,
state, local, and other entities. The Program Review Division (PRD) performs oversight over
the BOP's programs through a rigorous review process that measures program effectiveness and
adequacy of internal controls. The Administration Division (ADM) provides resources and
support for the BOP to perform effectively and efficiently. This includes the development of
budget requests, the stewardship of financial resources, and procurement and property
management; the coordination and analysis of information related to capacity; the selection of
sites for new prison construction; the design and construction of new correctional facilities; and
the renovation and maintenance of existing facilities. The Correctional Programs Division

     U.S. Department of Justice

                                                -3-
(CPD) develops activities and programs designed to appropriately classify inmates, eliminate
inmate idleness, and develop the skills necessary to facilitate the successful reintegration of
inmates into their communities upon release. The Health Services Division (HSD) has
responsibilities in medical care, safety and environmental health, and food services. The health
care mission is to deliver necessary health care to inmates. The occupational safety and
environmental health mission is to provide a safe and healthy environment for staff and inmates.
The food service mission is to provide healthy and appetizing meals that meet the needs of the
general population. The Human Resource Management Division (HRMD) is designed to
oversee and administer personnel policy and programs developed to address the needs of Bureau
employees covering all areas of personnel management. The Industries, Education, and
Vocational Training Division (IE&VT) encompasses the FPI program and the Bureau's
Education and Inmate Transition Program. The Education Branch oversees the Bureau's
recreation programs and the Bureau's education and vocational training programming. The
Inmate Transition Branch works to enhance inmates' post-release employment opportunities and
also oversees the Bureau's Volunteer Management Program. The Information, Policy and
Public Affairs Division (IPPA) collects, develops, and disseminates useful, accurate, and timely
information to BOP staff, DOJ, Congress, other government agencies, and the public. The
Office of General Counsel (OGC) provides effective legal advice, assistance, and representation
to officials of the Federal Bureau of Prisons.

The Trust Fund was created in the early 1930s to allow inmates a means to purchase additional
products and services above the necessities provided by appropriated Federal funds (e.g.,
personal grooming products, snacks, postage stamps, and telephone services). The Trust Fund is
a self-sustaining trust revolving fund account that is funded through sales of goods and services
to inmates.

The BOP is subdivided into six geographical regions (see Attachment A), each managed by a
Regional Director. Regions are staffed with personnel who provide operational guidance and
support to the field locations in management and administrative areas such as financial
management, budgeting, technical assistance, personnel, and correctional management.

In the fiscal year 2012, the BOP operated 118 institutions spanning four main security levels in
its efforts to provide secure and cost effective housing to a broad spectrum of offenders.
Institutions are assigned a security classification based in part on the physical design of each
facility. The four security levels are minimum, low, medium, and high. In addition,
administrative facilities are institutions with special missions, including: detention of non-
citizen or pretrial offenders, treatment of inmates with serious or chronic medical problems, and
containment of extremely violent or dangerous inmates. Administrative facilities are capable of
housing inmates of all security categories.




     U.S. Department of Justice

                                               -4-
FINANCIAL STRUCTURE

The BOP was provided two appropriations by Congress for fiscal year 2012: Salaries and
Expenses and Buildings and Facilities. The Salaries and Expenses (S&E) portion includes
annual and multi-year appropriations, while Buildings and Facilities (B&F) is a no-year
appropriation. The Trust Fund receives spending authority from offsetting collections for
revenue earned through the sale of goods and services.

The S&E appropriations are annual and multi-year appropriations that support costs associated
with the care and custody of all Federal offenders in Federal institutions and contract facilities,
and the maintenance and operational costs associated with the upkeep of Federal facilities,
regional offices, staff training centers, and administrative offices.

The B&F appropriation is a no-year appropriation that supports site planning, acquisition, and
construction of new facilities. The B&F appropriation also supports the remodeling, renovating,
and equipping of existing facilities for penal and correctional use.

ANALYSIS OF FINANCIAL STATEMENTS

Highlights of the financial and budgetary information presented in the financial statements
follows.

Assets: The BOP’s Consolidated Balance Sheets as of September 30, 2012, shows $7.798
billion in total assets, a decrease of $99 million from the previous year’s total assets of $7.897
billion. General Property, Plant and Equipment, Net was $6.287 billion, which represents 81
percent of total assets.

Liabilities: Total BOP liabilities were $1.988 billion as of September 30, 2012, an increase of
$12 million from the previous year’s total liabilities of $1.976 billion. Actuarial FECA liabilities
were $853 million and Accounts Payable was $340 million, which represents 43 percent and 17
percent of total liabilities respectively.

Net Cost of Operations: The Consolidated Statements of Net Cost presents the BOP’s gross
and net cost by strategic goals 2 and 3. The net cost of the BOP’s operations totaled $7.097
billion for the fiscal year ended September 30, 2012, an increase of $263 million (4 percent)
from the previous year’s net cost of operations of $6.834 billion.




     U.S. Department of Justice

                                                -5-
Consistent with the Government Performance and Results Act (GPRA), the BOP has a formal
strategic planning process that feeds into the Department’s strategic plan. The BOP sets goals,
measures performance, and reports annually on its actual performance compared to its goals.
The Office of Management and Budget (OMB) Circular A-136 and the Statement of Federal
Financial Accounting Standard (SFFAS) No. 15, “Management’s Discussion and Analysis –
Standards,” require agencies to present the most significant performance measures related to
information on major goals from the agency’s strategic plan. Reported measures are also linked
to the DOJ Strategic Goal 2, “Prevent Crime, Protect the Rights of the American People, and
Enforce Federal Law,” and Strategic Goal 3, “Ensure and Support the Fair, Impartial, Efficient,
and Transparent Administration of Justice at the Federal, State, Local, Tribal, and International
Levels.” Tables 1 and 2 summarize the activity on the BOP’s Consolidated Statements of
Changes in Net Position and Consolidated Statements of Net Cost. The tables show the funds
provided to the BOP for the fiscal years ended September 30, 2012 and 2011 for the purpose of
achieving the strategic goals.




     U.S. Department of Justice

                                               -6-
                                 Table 1. Source of BOP Resources
                                      (Dollars in Thousands)

                              Source                                 FY 2012          FY 2011     Change %
Earned Revenue                                                   $     410,305    $     385,676       6%
Budgetary Financing Sources                                                                        #DIV/0!
 Appropriations Received                                             6,641,281         6,394,155      4%
 Appropriations Transferred-In/Out                                        (562)           (1,834)   -69%
 Other Adjustments and Other Budgetary Financing Sources               (45,000)          (12,788)   252%
Other Financing Sources                                                                            #DIV/0!
 Donations and Forfeitures of Property                                    30                 226    -87%
 Transfers-In/Out Without Reimbursement                              151,645               1,413   10,632%
 Imputed Financing from Costs Absorbed by Others                     238,018             262,524     -9%
Total                                                            $ 7,395,717      $    7,029,372      5%



                             Table 2. How BOP Resources are Spent
                                      (Dollars in Thousands)

                     Strategic Goal (SG)                           FY 2012            FY 2011      Change %
SG 2: Prevent Crime, Protect the Rights of the American People,
and Enforce Federal Law
                                                     Gross Cost1 $     7,242      $       6,613
                                          Less: Earned Revenue1            -                -
                                                       Net Cost 1 $     7,242     $       6,613      10%
SG 3: Ensure and Support the Fair, Impartial, Efficient, and
Transparent Administration of Justice at the Federal, State,
Local, Tribal, and International Levels
                                                     Gross Cost1 $ 7,499,577      $    7,213,365
                                          Less: Earned Revenue1       410,305            385,676
                                                       Net Cost 1 $ 7,089,272     $    6,827,689     4%
                                                                       X
                                             Total Gross Cost1 $ 7,506,819        $    7,219,978
                                  Less: Total Earned Revenue1        410,305             385,676
                                  Total Net Cost of Operations 1 $ 7,096,514      $    6,834,302     4%




     U.S. Department of Justice

                                                    -7-
2012 Financial Highlights

Strategic Goal 2: Prevent Crime, Protect the Rights of the American People, and Enforce
Federal Law

Strategic Goal 2, Prevent Crime, Protect the Rights of the American People, and Enforce Federal
Law, includes preventing, suppressing and intervening in crimes against children. The Adam
Walsh Child Protection and Safety Act (Walsh Act) includes a provision for the civil
commitment of sexually dangerous persons due for release from BOP custody. To initiate court
commitment proceedings, the BOP must certify the inmate as a “sexually dangerous person” as
specified in the statute. The BOP does not have an existing performance measure for its Walsh
Act efforts.

Strategic Goal 3: Ensure and Support the Fair, Impartial, Efficient, and Transparent
Administration of Justice at the Federal, State, Local, Tribal, and International Levels

Strategic Goal 3, Ensure and Support the Fair, Impartial, Efficient, and Transparent
Administration of Justice at the Federal, State, Local, Tribal, and International Levels, includes
maintaining secure, safe, and humane correctional institutions for sentenced offenders placed in
custody. The BOP develops and operates correctional programs that seek a balanced application
of the concepts of punishment and deterrence with opportunities to prepare the offender for
successful reintegration into society. Through the NIC, the BOP provides assistance to
international, Federal, state, and local correctional agencies. The BOP conducts its incarceration
function using a range of the BOP operated institutions of varying security levels, as well as the
use of privately operated facilities, which includes half-way houses. In addition, the BOP houses
all Washington, D.C. adult felons sentenced to a term of confinement. In FY 2012, Goal 3 net
costs increased by 4 percent. This is due primarily to the 919 increased number of inmates in the
BOP’s custody.




     U.S. Department of Justice

                                               -8-
PERFORMANCE INFORMATION

Data Reliability And Validity

The BOP views data reliability and validity as critically important in the planning and
assessment of our performance. As such, this document includes a discussion of data validation,
verification, and any identified data limitations for each performance measurement presented.
Each reporting component ensures that data reported meets the following criteria:

       At a minimum, performance data are considered reliable if transactions and other
       data that support reported performance measures are properly recorded,
       processed, and summarized to permit the preparation of performance information
       in accordance with criteria stated by management. Performance data need not be
       perfect to be reliable, particularly if the cost and effort to secure the best
       performance data possible will exceed the value of any data so obtained.

FY 2012 REPORT ON SELECTED RESULTS

STRATEGIC GOAL 2: Prevent Crime, Protect the Rights of the American People, and
Enforce Federal Law. .1 percent of the BOP’s Net Costs support this Goal.

STRATEGIC GOAL 3: Ensure and Support the Fair, Impartial, Efficient, and
Transparent Administration of Justice at the Federal, State, Local, Tribal, and
International Levels. 99.9 percent of the BOP’s Net Costs support this Goal.




     U.S. Department of Justice

                                              -9-
Performance Measure: Percent of System-wide Crowding in Federal Prisons (% over rated
capacity)

Background/Program Objectives: The BOP constantly monitors and reports weekly on facility
capacity, population growth, and prisoner crowding. As federal inmate population levels are
projected to increase and continue to exceed the rated capacity of the BOP, every possible action
is being taken to protect the community, while keeping institutional crowding at manageable
proportions to ensure that federal inmates continue to serve their sentences in a safe and humane
environment.


                                              Percent of System-wide Crowding


       100%
        80%
        60%
                  39%         41%                    36%        37%         36%        37%         37%        39%           37%        38%
        40%                              34%

        20%
         0%

                                                                                                                          t
                  al


                             al


                                         al


                                                    al


                                                                al


                                                                           al


                                                                                       al


                                                                                                  al


                                                                                                              al




                                                                                                                                       al
                                                                                                                       ge
                 u


                              u


                                         u


                                                     u


                                                                u


                                                                            u


                                                                                       u


                                                                                                   u


                                                                                                              u




                                                                                                                                      u
              ct


                           ct


                                      ct


                                                  ct


                                                             ct


                                                                         ct


                                                                                    ct


                                                                                                ct


                                                                                                           ct




                                                                                                                                   ct
                                                                                                                        r
                                                                                                                     Ta
              A


                         A


                                     A


                                                A


                                                            A


                                                                       A


                                                                                   A


                                                                                              A


                                                                                                          A




                                                                                                                                   A
          3


                       4


                                  5


                                              6


                                                         7


                                                                     8


                                                                                9


                                                                                            0


                                                                                                       1


                                                                                                                   2


                                                                                                                              2
          0


                     0


                                 0


                                            0


                                                        0


                                                                   0


                                                                               0


                                                                                          1


                                                                                                      1


                                                                                                                 1


                                                                                                                               1
       FY


                  FY


                              FY


                                         FY


                                                     FY


                                                                FY


                                                                            FY


                                                                                       FY


                                                                                                   FY


                                                                                                              FY


                                                                                                                            FY




FY 2012 Target: 37%
FY 2012 Actual: 38%

Discussion of FY 2012 Results: The target crowding level was developed using the DOJ
Strategic Plan goal to reduce system-wide crowding in BOP facilities to 30 percent by 2016.
During FY 2012, the overall BOP population increased by 919. Although the BOP did not
achieve its target for FY 2012, the institution population decreased by 378 and capacity from
activating facilities (FCI Mendota, CA and FCI Berlin, NH) increased by 564 beds to achieve a 1
percent reduction in system-wide crowding from FY 2011. Reducing overcrowding remains a
high priority for both BOP and DOJ.

The BOP will continue the activation process at FCI Berlin, NH, and the Secure Female FCI
Aliceville, AL, in FY 2013, in addition to completing construction of FCI Hazelton, WV, and
USP Yazoo City, MS. Dependent on funding, this additional capacity should help alleviate
crowding in FY 2013.

     U.S. Department of Justice

                                                                         - 10 -
Data Definitions: The crowding levels are based on a mathematical ratio of the number of
inmates divided by the rated capacity of the institutions at each of the specific security levels.
The percent of crowding represents the rate of crowding that is over rated capacity. For
example, if an institution had a number of inmates that equaled the rated capacity, this would
represent 100 percent occupancy, which equals 0 percent crowding. Any occupancy above 100
percent represents a percentage of crowding. System-wide: represents all inmates in BOP
facilities and all rated capacity, including secure and non-secure facilities, low, medium, and
high security levels, as well as administrative maximum, detention, medical, holdover, and other
special housing unit categories. Minimum security facilities: non-secure facilities that generally
house non-violent, low risk offenders with shorter sentences. These facilities have limited or no
perimeter security fences or armed posts. Low security facilities: double-fenced perimeters,
mostly dormitory housing, and strong work/program components. Medium security facilities:
strengthened perimeters, mostly cell-type housing, work and treatment programs and a lower
inmate-to-staff ratio than low security facilities. High security facilities: also known as U.S.
Penitentiaries, highly secure perimeters, multiple and single cell housing, lowest inmate-to-staff
ratio, close control of inmate movement.

Data Collection and Storage: Data are gathered from several computer systems. Inmate data
are collected on the BOP on-line system (SENTRY). The BOP also utilizes a population
forecast model to plan for future contracting and construction requirements to meet capacity
needs.

Data Validation and Verification: Subject matter experts review and analyze population and
capacity levels daily, both overall and by security level. BOP institutions print a SENTRY
report, which provides the count of inmates within every institution cell house. The report further
subdivides the cell houses into counting groups, based on the layout of the institution. Using this
report, institution staff conduct an official inmate count five times per day to confirm the inmate
count within SENTRY. The BOP Capacity Planning Committee (CPC), comprised of top BOP
officials, meets bi-monthly to review, verify, and update population projections and capacity
needs for the BOP. Offender data are collected regularly from the Administrative Office of the
U.S. Courts by the BOP Office of Research and Evaluation in order to project population trends.
The CPC reconciles bed space needs and crowding trends to ensure that all available prison
space is fully utilized, both in federal prisons and in contract care.

Data Limitations: None known at this time.




     U.S. Department of Justice

                                               - 11 -
Performance Measure (NEW MEASURE): Number of inmate participants in the Residential
Drug Abuse Program (RDAP)

Background/Program Objectives: In response to the rapid growth of federal inmates with a
diagnoses of a drug use disorder (40 percent of inmates entering the BOP), the BOP continues to
develop evidence based treatment practices to manage and treat drug-using offenders. More than
half of the BOP’s facilities operate an RDAP. RDAP programs are located in a separate unit,
away from the general population. The RDAP is based on Cognitive Behavioral Therapy (CBT),
wrapped into a modified therapeutic community model of treatment. CBT and therapeutic
communities are proven-effective treatment models with inmate populations.

Inmates who participate in RDAP continue with drug abuse treatment when transferred to a
Residential Reentry Center in the community while still in BOP custody. The BOP contracts
with community-based treatment providers, often the same treatment providers who will
continue the offender’s course of treatment when released to community supervision. This
ensures a continuity of treatment and supervision.


                                   Number of Residential Drug Abuse Participants


      30,000


                                                                                                                                     00
      25,000
                                                                                                                                   ,5


                                                                                                                                                82
                                                                                                                                 18
      20,000


                                                                                                                                              ,4
                                                                                                                                            14
      15,000
      10,000
                                                                                                           -
                    -


                                   -


                                              -


                                                           -


                                                                      -


                                                                                   -


                                                                                              -




                                                                                                                      -




        5,000
           0
                                                                                                                               t
                    l


                              al


                                           al


                                                      al


                                                                   al


                                                                              al


                                                                                           al


                                                                                                      al


                                                                                                                   al




                                                                                                                                            al
                  ua




                                                                                                                            ge
                               u


                                          u


                                                       u


                                                                  u


                                                                               u


                                                                                          u


                                                                                                       u


                                                                                                                  u




                                                                                                                                           u
                ct


                            ct


                                       ct


                                                    ct


                                                               ct


                                                                            ct


                                                                                       ct


                                                                                                    ct


                                                                                                               ct




                                                                                                                                        ct
                                                                                                                             r
                                                                                                                          Ta
               A


                          A


                                       A


                                                  A


                                                               A


                                                                          A


                                                                                       A


                                                                                                  A


                                                                                                               A




                                                                                                                                        A
           3


                        4


                                   5


                                                6


                                                           7


                                                                        8


                                                                                   9


                                                                                                0


                                                                                                           1


                                                                                                                        2


                                                                                                                                   2
           0


                      0


                                  0


                                              0


                                                          0


                                                                      0


                                                                                  0


                                                                                              1


                                                                                                          1


                                                                                                                      1


                                                                                                                                    1
        FY


                   FY


                               FY


                                           FY


                                                       FY


                                                                   FY


                                                                               FY


                                                                                           FY


                                                                                                       FY


                                                                                                                   FY


                                                                                                                                 FY




FY 2012 Target: 18,500
FY 2012 Actual: 14,482

Discussion of FY 2012 Results: The Director approved 120 additional RDAP positions
expanding the RDAP to allow an additional 1,616 inmates to participate. The BOP opened a
RDAP in a United States Penitentiary for the first time in 15 years. A Spanish Language RDAP
was approved this year with activation to occur in FY 2013.



     U.S. Department of Justice

                                                                          - 12 -
Discussion of FY 2012 Results (continued): The target of 18,500 was generated utilizing a
calculation of all inmate movement into and out of the RDAP. Through closer review, it
was determined this methodology resulted in the potential for the same inmate to be counted
twice within the same fiscal year. A more refined methodology to calculate RDAP participation,
with significantly less potential for duplication, was recently developed. This more precise
methodology will be utilized going forward. Thus, while this change has resulted in the number
of participants during the fiscal year being less than the target number, it is a preferred method to
report inmate participation in RDAP.

Data Definitions: RDAP - data reported is the actual number of BOP inmates who participated
in the RDAP within the Fiscal Year.

Data Collection and Storage: Data is collected/entered into the BOP's SENTRY data system
and the Psychology Data System (PDS). Data is collected/entered primarily by Case Managers,
Drug Abuse Treatment Specialists and Drug Abuse Treatment Coordinators in the institutions.
SENTRY data tracks the inmate's status in RDAP. PDS tracks the inmate's clinical progress,
including: treatment plans; 60 day treatment reviews; group contacts; individual contacts;
treatment summaries, etc. Current and historical data uploads from SENTRY are provided
monthly. (Although weekly data is available for current participants, it is necessary to use the
monthly files to match the historical data). A Statistical Analysis Software (SAS) program was
written to identify the number of offenders in BOP custody who were identified in SENTRY as
DAP PART (Drug Abuse Program Participation) or DAP PART D (Drug Abuse Program
Participation Dually Diagnosed – Mental Illness and Drug Abuse) assignments from October 1,
2011 and September 30, 2012. Both SENTRY and PDS are stored electronically. Signed
documents are inserted in the inmate's Central File.

Data Validation and Verification: Validation is conducted by the Drug Abuse Program
Coordinator through regular treatment meetings, supervision and inmate file and data reviews.
Data Verification is conducted through SENTRY data which are monitored by Central Office
and the Regional Offices no less than monthly. Also verification is done through routine review
of PDS records in the course of daily activities of inmate documentation related to the RDAP.
Examples of reviews conducted include, but are not limited to: programs are operating as
intended; participant status and progress are documented appropriately; PDS documentation
meets the clinical standard as outlined by policy and training; inmates are interviewed for RDAP
appropriately; and to ensure all inmates qualified for the RDAP are receiving the RDAP before
their release from BOP custody.

Data Limitations: None known at this time.




     U.S. Department of Justice

                                                - 13 -
ANALYSIS OF SYSTEMS, CONTROLS, AND LEGAL COMPLIANCE

Federal Managers’ Financial Integrity Act of 1982

The Federal Managers’ Financial Integrity Act of 1982 (Integrity Act or FMFIA) provides the
statutory basis for management’s responsibility for and assessment of internal accounting and
administrative controls. Such controls include program, operational, and administrative areas, as
well as accounting and financial management. The Integrity Act requires Federal agencies to
establish controls that reasonably ensure obligations and costs are in compliance with applicable
law; funds, property, and other assets are safeguarded against waste, loss, unauthorized use, or
misappropriation; and revenues and expenditures are properly recorded and accounted for to
maintain accountability over the assets. The Integrity Act also requires agencies to annually
assess and report on the internal controls that protect the integrity of Federal programs (FMFIA
Section 2) and whether financial management systems conform to related requirements (FMFIA
Section 4).

Guidance for implementing the Integrity Act is provided through OMB Circular A-123. In
addition to requiring agencies to provide an assurance statement on the effectiveness of
programmatic internal controls and conformance with financial systems requirements, the
Circular requires agencies to provide an assurance statement on the effectiveness of internal
control over financial reporting. The Department requires components to provide both of the
assurance statements in order to have the information necessary to prepare the agency assurance
statements.

FMFIA Assurance Statement

The Director of the BOP provides Reasonable Assurance that management controls and financial
systems met the objectives of Sections 2 and 4 of the FMFIA.

Controls

The BOP has a management control and financial management systems review program as
required by the FMFIA. The PRD facilitates, monitors, and evaluates the BOP’s implementation
of the FMFIA by coordinating management assessments, thereby providing a quality assurance
mechanism for the program review process. The PRD conducts reviews for all BOP programs
that examine compliance with laws, regulations, and policy. In addition, reviews examine the
adequacy of controls, efficiency of operations, and effectiveness in achieving program results.
During fiscal years 2012 and 2011, 27 and 35 Financial Management Program Reviews were
conducted at field sites and the Central Office, respectively. The reviews covered the areas of
Accounting, Budgeting, Laundry, Employee Organizations, Property Management, Commissary,
and Warehouse.


     U.S. Department of Justice

                                              - 14 -
Systems

For fiscal year 2012, the BOP’s official reports were generated from the Financial Management
Information System (FMIS) General Ledger, Cost Reporting, and Expenditure and Allotment
reporting facilities. The FMIS General Ledger is supported by the following other systems:
SENTRY Property Management System; SENTRY Real Property Management System; Trust
Fund Accounting and Commissary System; and National Finance Center Payroll System.

Improper Payments

The Improper Payments Information Act (IPIA) requires a risk assessment in all programs to
identify those that are susceptible to significant erroneous payments. Significant erroneous
payments are defined by the OMB as annual erroneous payments in a program exceeding both
2.5 percent of program payments and $10 million. Based on risk assessment comprised of
Independent Audit Reports and Internal Control Reviews, in FY 2012, the BOP has determined
there were no significant risk programs in which improper payments exceed both 2.5 percent of
program payments and $10 million.

FMFIA Section 2 – Material Weaknesses

Management of the Bureau of Prisons is responsible for establishing and maintaining effective
internal control and financial management systems that meet the objectives of the FMFIA. The
BOP assessed its internal control over the effectiveness and efficiency of operations and
compliance with the applicable laws and regulations in accordance with OMB Circular A-123,
Management’s Responsibility for Internal Control, as required by Section 2 of the FMFIA.
Based on the results of this assessment, the BOP can provide reasonable assurance that its
internal control over the effectiveness and efficiency of operations and compliance with
applicable laws and regulations as of September 30, 2012, was operating effectively, except for
one material weakness of system-wide prison crowding.

The BOP manages the continually growing Federal inmate population by contracting with the
private sector and using State and local facilities for certain groups of low-security inmates,
expanding existing institutions, and building new facilities. The continued use of these
approaches is expected to allow the BOP to keep pace with the growing inmate population and
gradually reduce the crowding rate, thereby ensuring safe and secure operations in facilities
housing Federal inmates.




     U.S. Department of Justice

                                              - 15 -
FMFIA Section 4 – Material Nonconformances

The BOP management is responsible for ensuring compliance with applicable laws and
regulations. To ensure compliance, reviews are performed as discussed above. Specifically, the
BOP performed a review of its financial management systems pursuant to Section 4 provisions
of the FMFIA. No significant financial management non-conformance was found in this review.


Federal Financial Management Improvement Act of 1996

The Federal Financial Management Improvement Act of 1996 (FFMIA) was designed to
improve Federal financial and program managers’ accountability, provide better information for
decision-making, and improve the efficiency and effectiveness of Federal programs. FFMIA
requires agencies to have financial management systems that substantially comply with Federal
financial management systems requirements, applicable Federal accounting standards, and the
U.S. Standard General Ledger (USSGL) at the transaction level. Furthermore, the Act requires
independent auditors to report on agency compliance with the three requirements in the financial
statement audit report. The Federal Information Security Management Act (FISMA) states that
to be substantially compliant with FFMIA, there are to be no significant deficiencies in
information security policies, procedures, or practices.

FFMIA Compliance Determination

During FY 2012, the BOP assessed its financial management systems for compliance with
FFMIA and determined that they substantially comply with FFMIA. This determination is based
on the results of testing performed for OMB Circular A-123, Appendix A. Consideration was
also given to any issues identified during the BOP’s financial statement audit.


POSSIBLE FUTURE EFFECTS OF EXISTING EVENTS AND CONDITIONS

Crowding in Federal Prisons

Most of the challenges affecting the BOP today relate to growth of the Federal inmate
population. The BOP continues to rely on funding to build and acquire additional facilities to
help manage its growing inmate population and reduce the crowding rate. With increasing
Federal law enforcement efforts, the BOP is projecting population increases for the next several
years.




     U.S. Department of Justice

                                              - 16 -
IMPROPER PAYMENTS ELIMINATION AND RECOVERY ACT (IPERA)
REPORTING

In accordance with OMB Circular A-123, Appendix C, Requirements for Effective Measurement
and Remediation of Improper Payments, and the Departmental guidance for implementing the
Improper Payments Elimination and Recovery Act (IPERA), the Department implemented a top-
down approach to assess the risk of significant improper payments across all five of the
Department’s mission-aligned programs, and to identify and recapture improper payments
through a payment recapture audit program. The approach promotes consistency across the
Department and enhances internal control related to preventing, detecting, and recovering
improper payments. Because of the OMB requirement to assess risk and report payment
recapture audit activities by agency programs, the results of the Department’s risk assessment
and recapture activities are reported at the Department-level only.

In accordance with the Departmental approach for implementing IPERA, the BOP assessed its
activities for susceptibility to significant improper payments. The BOP also conducted its
payment recapture audit program in accordance with the Departmental approach. The BOP
provided the results of both the risk assessment and payment recapture audit activities to the
Department for the Department-level reporting in the FY 2012 Performance and Accountability
Report.


LIMITATIONS OF THE FINANCIAL STATEMENTS

•	 The principal financial statements have been prepared to report the financial position and
   results of operations of the BOP, pursuant to the requirements of 31 U.S.C. 3515(b).

•	 While the statements have been prepared from the books and records of the BOP in
   accordance with U.S. generally accepted accounting principles for Federal entities and the
   formats prescribed by OMB, the statements are in addition to the financial reports used to
   monitor and control budgetary resources which are prepared from the same books and
   records.

•	 The statements should be read with the realization that they are for a component of the U.S.
   Government, a sovereign entity.




     U.S. Department of Justice

                                             - 17 -
                                                                                                                                                                               !
                                                                                                                                                                               !
                                                                ,                                                                                                     ~il
                                                                                                                                                                  , Ii,
                                           !.II! I         II                                                                                                     I
                                                                                                                                                                  II> '!p
                                           i:     ' II                                                                                           ,•                   !Id
                                           ~ I ' .~! :;                           I         Li                                                                            " Ii !
                                                                                                                                                                      i" ;li
                                            ,01jl'! !, I'
                                                                                                                                                                          IF~o;
                                                                                 CJ
                                                                                            i -) " /                                                                  ;j! III
                                                      0'
                                                       !
                                                     , •
                                                           11i~~! \                         ! J ~tlj
                                                                                                ~!
                                                                                                                   ,
                                                                                                                                                                      !'i'
                                                                                                                                                                      'I, I
                                                                                                                                                                          I,'-,
                                                                    il f' h                                        !'
                                                                                                                   I
                                                                                                                                             !!I!I!
                                                                                                                                                                          ! •
                                                               !,
                                                                ,
                                                                                 •              I'• "L!                 'I
                                                                                                                                               H         I'!
                                                                                                                                             . h."! i "~ i'-
                                                                                                                                             I
                                                                                                                                                          t ~    0;
                                                                                                                                                                          '"
                ~j..;                                                               I,                                                       ,Wii III
                                                                     t I'
                                               r H
                                                                                                     i

                ~                                                                    !               !'- J" j                                    DODD !Ii
                                                                                                                                                            ,IIi .."1'
                                                                                                                                                                          ;~~

                I/)~
                                                                                 ~I I                              i"
                0.,
                ~.g

                1/)0
                                          !~
                                          !'I
                                                                    ""                •
                                                                                                                       e8


                                                                                                                                                           ,i !'"!I
                                                                                                                                                                 ~U
                _0                                                                                                                                           ;, i"
                O::-J
                1l.'C:                          !'                  Ii                10,
                                                                                       I
                                                                                                                            ,                                '"i ~~j'1'
                -J~
                '«'-                                                                   •                                    !
                                                                                                                            •                               !i            ~iil
                                                                                                                                                                          ~~
                                                                                                                                                                          ~·1t ii
                0::"
                UJO
                                                                                                             'I,                                            IIi
                                                                                                                                                            ;
                                                                                                                                                                          1'1
                                                                                                                                                                          II
                                                                                                                                                                          iih
                fil                                                      I                                                                                  <

                                                                                                                                                                          fa
                IJ..
                                                               ..
                                                               10    c-
                                                                                                     1!
                                                                                                         0                                                  I
                                                                                                                                                             !i!! ! III
                                                                                                                                                                          iidi


                                      I                                                                                                                     !- I. ,IIi,
                                  ~
                                                                                                ,
                                                                                           !, ! "    ' j
                                                                                                                                                            II!. i- Ii:,-.i
                                                                                                                                                            !. !; I'!i'
                                               I
                                                                             I
                                                                          "'""l                                                      "  "d~ q~"'I
                                                                                                                                    u~, nj
                                                                                                                                    ~ ~ <>
                                                                                                                                                            Iii! ' :;1
                        , I                                                                                                                                           ..
                                                                                                                                                      "


                                                                                                                                        ri
ATTACHMENT A





                        0!
                                                           • , .1 c;.                 ij                  Hlml
                                                                                                     I ;I HiiUdU
                                                                                                                     ;' !Iii
                                                                                                                ill I 1'" t,1!
                                                                                                                                   i
                                                                                                                                :Ii i


                                                                                                                                                                      ~


                              "                        i !,, ! F' ill                       I
                                                                                            !
                                                                                                     0               Ii! !m
                                                                                                              < D< ~ , Q .O .....
                                                                                                                                                              " "I
                                                                                                                                                           I1 !l',
                                                                                                                                                                      ~ ;1~~'




                                                           !                                                                                                  1'1.
                                                                                                                                                              IIi!


                                                                - 18 -
U.S. DEPARTMENT OF JUSTICE


      BUREAU OF PRISONS


    INDEPENDENT AUDITORS’ REPORTS




                - 19 -
This page intentionally left blank.




              - 20 -
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006




                        Independent Auditors’ Report on Financial Statements


Inspector General
U.S. Department of Justice

Director
Federal Bureau of Prisons
U.S. Department of Justice

We have audited the accompanying consolidated balance sheets of the U.S. Department of Justice Federal
Bureau of Prisons (BOP) as of September 30, 2012 and 2011, and the related consolidated statements of net
cost and changes in net position, and the combined statements of budgetary resources, (hereinafter referred
to as “consolidated financial statements” or “basic financial statements”) for the years then ended. These
consolidated financial statements are the responsibility of the BOP’s management. Our responsibility is to
express an opinion on these consolidated financial statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the consolidated financial statements are free of material misstatement. An audit includes
consideration of internal control over financial reporting as a basis for designing audit procedures that are
appropriate in the circumstances, but not for the purpose of expressing an opinion on the effectiveness of
the BOP’s internal control over financial reporting. Accordingly, we express no such opinion. An audit
also includes examining, on a test basis, evidence supporting the amounts and disclosures in the
consolidated financial statements, assessing the accounting principles used and significant estimates made
by management, as well as evaluating the overall consolidated financial statement presentation. We
believe that our audits provide a reasonable basis for our opinion.

In our opinion, the consolidated financial statements referred to above present fairly, in all material
respects, the financial position of the U.S. Department of Justice Federal Bureau of Prisons as of
September 30, 2012 and 2011, and its net costs, changes in net position, and budgetary resources for the
years then ended in conformity with U.S. generally accepted accounting principles.

As discussed in Note 1.X to the consolidated financial statements, the BOP changed its presentation for
reporting the combined statement of budgetary resources in fiscal year 2012, based on new reporting
requirements under OMB Circular No. A-136, Financial Reporting Requirements. As a result, the BOP’s
combined statement of budgetary resources for fiscal year 2011 has been adjusted to conform to the current
year presentation.

U.S. generally accepted accounting principles require that the information in Required Supplementary
Information, including Management’s Discussion and Analysis, be presented to supplement the basic
financial statements. Such information, although not a part of the basic financial statements, is required by
                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.

                                                               - 21 -
Independent Auditors’ Report on Financial Statements
Page 2 of 2




the Federal Accounting Standards Advisory Board who considers it to be an essential part of financial
reporting for placing the basic financial statements in an appropriate operational, economic, or historical
context. We have applied certain limited procedures to the required supplementary information in
accordance with auditing standards generally accepted in the United States of America, which consisted of
inquiries of management about the methods of preparing the information and comparing the information
for consistency with management’s responses to our inquiries, the basic financial statements, and other
knowledge we obtained during our audits of the basic financial statements. We do not express an opinion
or provide any assurance on the information because the limited procedures do not provide us with
sufficient evidence to express an opinion or provide any assurance.

Our audits were conducted for the purpose of forming an opinion on the basic financial statements as a
whole. The information in the Other Accompanying Information section is presented for the purpose of
additional analysis and is not a required part of the basic financial statements. Such information has not
been subjected to the auditing procedures applied in the audits of the basic financial statements, and
accordingly, we do not express an opinion or provide any assurance on it.

In accordance with Government Auditing Standards, we have also issued our reports dated November 5,
2012, on our consideration of the BOP’s internal control over financial reporting and our tests of its
compliance with certain provisions of laws, regulations, contracts, and other matters. The purpose of those
reports is to describe the scope of our testing of internal control over financial reporting and compliance
and the results of that testing, and not to provide an opinion on the internal control over financial reporting
or on compliance. Those reports are an integral part of an audit performed in accordance with Government
Auditing Standards and should be read in conjunction with this report in assessing the results of our audits.




November 5, 2012
	




                                                     - 22 -
                                 KPMG LLP
                                 Suite 12000
                                 1801 K Street, NW
                                 Washington, DC 20006




             Independent Auditors’ Report on Internal Control over Financial Reporting


Inspector General
U.S. Department of Justice

Director
Federal Bureau of Prisons
U.S. Department of Justice

We have audited the consolidated balance sheets of the U.S. Department of Justice Federal Bureau of
Prisons (BOP) as of September 30, 2012 and 2011, and the related consolidated statements of net cost and
changes in net position, and the combined statements of budgetary resources (hereinafter referred to as
“consolidated financial statements”) for the years then ended, and have issued our report thereon dated
November 5, 2012. As discussed in Note 1.X to the consolidated financial statements, the BOP changed its
presentation for reporting the combined statement of budgetary resources in fiscal year 2012, based on new
reporting requirements under OMB Circular No. A-136, Financial Reporting Requirements.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the consolidated financial statements are free of material misstatement.

The management of the BOP is responsible for establishing and maintaining effective internal control over
financial reporting. In planning and performing our fiscal year 2012 audit, we considered the BOP’s
internal control over financial reporting by obtaining an understanding of the BOP’s internal control,
determining whether internal controls had been placed in operation, assessing control risk, and performing
tests of controls as a basis for designing our auditing procedures for the purpose of expressing our opinion
on the consolidated financial statements, but not for the purpose of expressing an opinion on the
effectiveness of the BOP’s internal control over financial reporting. Accordingly, we do not express an
opinion on the effectiveness of the BOP’s internal control over financial reporting. We did not test all
internal controls relevant to operating objectives as broadly defined by the Federal Managers’ Financial
Integrity Act of 1982.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A material weakness is a deficiency, or a combination
of deficiencies, in internal control such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a timely basis.

Our consideration of internal control over financial reporting was for the limited purpose described in the
third paragraph of this report and was not designed to identify all deficiencies in internal control over


                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.

                                                                - 23 -
Independent Auditors’ Report on Internal Control over Financial Reporting
Page 2 of 2




financial reporting that might be deficiencies, significant deficiencies, or material weaknesses. In our fiscal
year 2012 audit, we did not identify any deficiencies in internal control over financial reporting that we
consider to be material weaknesses, as defined above.

This report is intended solely for the information and use of the BOP’s management, the U.S. Department
of Justice Office of the Inspector General, OMB, the U.S. Government Accountability Office, and the U.S.
Congress and is not intended to be and should not be used by anyone other than these specified parties.




November 5, 2012




                                                     - 24 -
                               KPMG LLP
                               Suite 12000
                               1801 K Street, NW
                               Washington, DC 20006




                  Independent Auditors’ Report on Compliance and Other Matters


Inspector General
U.S. Department of Justice

Director
Federal Bureau of Prisons
U.S. Department of Justice

We have audited the consolidated balance sheets of the U.S. Department of Justice Federal Bureau of
Prisons (BOP) as of September 30, 2012 and 2011, and the related consolidated statements of net cost and
changes in net position, and the combined statements of budgetary resources (hereinafter referred to as
“consolidated financial statements”) for the years then ended, and have issued our report thereon dated
November 5, 2012. As discussed in Note 1.X to the consolidated financial statements, the BOP changed its
presentation for reporting the combined statement of budgetary resources in fiscal year 2012, based on new
reporting requirements under OMB Circular No. A-136, Financial Reporting Requirements.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about whether
the consolidated financial statements are free of material misstatement.

The management of the BOP is responsible for complying with laws, regulations, and contracts applicable
to the BOP. As part of obtaining reasonable assurance about whether the BOP’s consolidated financial
statements are free of material misstatement, we performed tests of the BOP’s compliance with certain
provisions of laws, regulations, and contracts, noncompliance with which could have a direct and material
effect on the determination of the consolidated financial statement amounts, and certain provisions of other
laws and regulations specified in OMB Bulletin No. 07-04, including the provisions referred to in Section
803(a) of the Federal Financial Management Improvement Act of 1996 (FFMIA). We limited our tests of
compliance to the provisions described in the preceding sentence, and we did not test compliance with all
laws, regulations, and contracts applicable to the BOP. However, providing an opinion on compliance with
those provisions was not an objective of our audit, and accordingly, we do not express such an opinion.

The results of our tests of compliance described in the preceding paragraph, exclusive of those referred to
in FFMIA, disclosed no instances of noncompliance or other matters that are required to be reported herein
under Government Auditing Standards or OMB Bulletin No. 07-04.

The results of our tests of FFMIA disclosed no instances in which the BOP’s financial management
systems did not substantially comply with the (1) federal financial management system requirements,
(2) applicable federal accounting standards, and (3) application of the United States Government Standard
General Ledger at the transaction level.


                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.

                                                               - 25 -
Independent Auditors’ Report on Compliance and Other Matters
Page 2 of 2




This report is intended solely for the information and use of the BOP’s management, the U.S. Department
of Justice Office of the Inspector General, OMB, the U.S. Government Accountability Office, and the U.S.
Congress and is not intended to be and should not be used by anyone other than these specified parties.




November 5, 2012




                                                 - 26 -
U.S. DEPARTMENT OF JUSTICE


      BUREAU OF PRISONS

    PRINCIPAL FINANCIAL STATEMENTS
	
          AND RELATED NOTES
	




                 - 27 -
  Dollars in Thousands                                                                 2012               2011

  ASSETS (Note 2)
     Intragovernmental
         Fund Balance with U.S. Treasury (Note 3)                            $   1,305,195       $   1,468,669
         Accounts Receivable, Net (Note 6)                                           3,653               3,347
         Other Assets (Note 9)                                                     165,000                   -
     Total Intragovernmental                                                     1,473,848           1,472,016

     Cash and Monetary Assets (Note 4)                                                 802                 783
     Accounts Receivable, Net (Note 6)                                               7,361               9,778
     Inventory and Related Property, Net (Note 7)                                   19,609              18,180
     General Property, Plant and Equipment, Net (Note 8)                         6,286,908           6,387,481
     Advances and Prepayments                                                        4,622               3,899
     Other Assets (Note 9)                                                           4,701               4,473
  Total Assets                                                               $   7,797,851       $   7,896,610

  LIABILITIES (Note 10)
     Intragovernmental
         Accounts Payable                                                    $      47,558       $     37,098
         Accrued Federal Employees' Compensation Act Liabilities                   152,884            144,780
         Other Liabilities (Note 13)                                                69,148             69,364
     Total Intragovernmental                                                       269,590            251,242

     Accounts Payable                                                              291,709             367,973
     Actuarial Federal Employees' Compensation Act Liabilities                     853,362             761,197
     Accrued Payroll and Benefits                                                  155,218             151,321
     Accrued Annual and Compensatory Leave Liabilities                             171,739             170,187
     Environmental and Disposal Liabilities (Note 11)                               64,222              62,722
     Deferred Revenue                                                                1,957               1,939
     Contingent Liabilities (Note 14)                                                4,230               8,563
     Capital Lease Liabilities (Note 12)                                            16,627              23,941
     Other Liabilities (Note 13)                                                   159,380             176,606
  Total Liabilities                                                          $   1,988,034       $   1,975,691

  NET POSITION
     Unexpended Appropriations - All Other Funds                             $     649,416       $     744,671
     Cumulative Results of Operations - Earmarked Funds (Note 15)                   86,212              83,557
     Cumulative Results of Operations - All Other Funds                          5,074,189           5,092,691
  Total Net Position                                                         $   5,809,817       $   5,920,919

  Total Liabilities and Net Position                                         $   7,797,851       $   7,896,610




U.S. Department of Justice
                    The accompanying notes are an integral part of these financial statements.
                                                    - 28 -
Dollars in Thousands

                                        Gross Costs                                   Less: Earned Revenues                      Net Cost of
                    Intra­               With the                              Intra-        With the                            Operations
              FY governmental             Public              Total         governmental      Public                 Total        (Note 16)

Goal 2       2012      $           -    $      7,242     $      7,242       $            -     $           -     $           -   $      7,242
             2011      $           -    $      6,613     $      6,613       $            -     $           -     $           -   $      6,613

Goal 3       2012          1,664,927        5,834,650        7,499,577             20,904          389,401           410,305         7,089,272
             2011          1,629,744        5,583,621        7,213,365             15,252          370,424           385,676         6,827,689

Total        2012      $ 1,664,927      $ 5,841,892      $ 7,506,819        $      20,904      $   389,401       $   410,305     $ 7,096,514
             2011      $ 1,629,744      $ 5,590,234      $ 7,219,978        $      15,252      $   370,424       $   385,676     $ 6,834,302


Goal 2      Prevent Crime, Protect the Rights of the American People, and Enforce Federal Law
Goal 3      Ensure and Support the Fair, Impartial, Efficient, and Transparent Administration of Justice at the Federal,
            State, Local, Tribal, and International Levels




  U.S. Department of Justice
                                The accompanying notes are an integral part of these financial statements.

                                                                      - 29 -
Dollars in Thousands


                                                                                     2012
                                                           Earmarked               All Other
                                                             Funds                  Funds                Total
Unexpended Appropriations
  Beginning Balances                                  $                  -    $          744,671     $      744,671

   Budgetary Financing Sources
     Appropriations Received                                             -              6,641,281          6,641,281
     Appropriations Transferred-In/Out                                   -                   (562)              (562)
     Other Adjustments                                                   -                (45,000)           (45,000)
     Appropriations Used                                                 -             (6,690,974)        (6,690,974)
   Total Budgetary Financing Sources                                     -                (95,255)          (95,255)
   Unexpended Appropriations                          $                  -    $          649,416     $      649,416

Cumulative Results of Operations
  Beginning Balances                                  $            83,557     $        5,092,691     $    5,176,248

   Budgetary Financing Sources
     Appropriations Used                                                 -             6,690,974          6,690,974

   Other Financing Sources
      Donations and Forfeitures of Property                              -                    30                 30
      Transfers-In/Out Without Reimbursement                             -               151,645            151,645
      Imputed Financing from Costs Absorbed
        by Others (Note 17)                                         4,346                233,672            238,018
   Total Financing Sources                                          4,346              7,076,321          7,080,667
   Net Cost of Operations                                          (1,691)             (7,094,823)        (7,096,514)
   Net Change                                                       2,655                 (18,502)          (15,847)
   Cumulative Results of Operations                   $            86,212     $        5,074,189     $    5,160,401

Net Position                                          $            86,212     $        5,723,605     $    5,809,817




  U.S. Department of Justice
                        The accompanying notes are an integral part of these financial statements.

                                                          - 30 -
Dollars in Thousands


                                                                                     2011
                                                           Earmarked               All Other
                                                             Funds                  Funds                Total
Unexpended Appropriations
  Beginning Balances                                  $                  -    $          894,623     $      894,623

   Budgetary Financing Sources
     Appropriations Received                                             -              6,394,155          6,394,155
     Appropriations Transferred-In/Out                                   -                 (1,834)            (1,834)
     Other Adjustments                                                   -                (12,788)           (12,788)
     Appropriations Used                                                 -             (6,529,485)        (6,529,485)
   Total Budgetary Financing Sources                                     -              (149,952)          (149,952)
   Unexpended Appropriations                          $                  -    $          744,671     $      744,671

Cumulative Results of Operations
  Beginning Balances                                  $            69,853     $        5,147,049     $    5,216,902

   Budgetary Financing Sources
     Appropriations Used                                                 -             6,529,485          6,529,485

   Other Financing Sources
      Donations and Forfeitures of Property                             -                     226                  226
      Transfers-In/Out Without Reimbursement                          (72)                  1,485                1,413
      Imputed Financing from Costs Absorbed
        by Others (Note 17)                                         4,706                257,818            262,524
   Total Financing Sources                                          4,634              6,789,014          6,793,648
   Net Cost of Operations                                           9,070              (6,843,372)        (6,834,302)
   Net Change                                                      13,704                 (54,358)          (40,654)
   Cumulative Results of Operations                   $            83,557     $        5,092,691     $    5,176,248

Net Position                                          $            83,557     $        5,837,362     $    5,920,919




  U.S. Department of Justice
                        The accompanying notes are an integral part of these financial statements.

                                                          - 31 -
Dollars in Thousands                                                                               2012             2011

Budgetary Resources:
   Unobligated Balance, Brought Forward, October 1                                   $          379,813    $    377,906
   Recoveries of Prior Year Unpaid Obligations                                                   23,388            4,539
   Other Changes in Unobligated Balance                                                          (1,862)          (1,834)
   Unobligated Balance from Prior Year Budget Authority, Net                                    401,339          380,611
   Appropriations (discretionary and mandatory)                                               6,597,581        6,381,367
   Spending Authority from Offsetting Collections (discretionary and mandatory)                 561,856          388,448
Total Budgetary Resources                                                            $        7,560,776    $   7,150,426

Status of Budgetary Resources:
    Obligations Incurred (Note 18)                                                            7,164,861        6,770,613
    Unobligated Balance, End of Period:
         Apportioned                                                                            232,512          258,217
         Exempt from Apportionment                                                               59,772           56,381
         Unapportioned                                                                          103,631           65,215
    Total Unobligated Balance - End of Period                                                   395,915          379,813
 Total Status of Budgetary Resources:                                                $        7,560,776    $   7,150,426

Change in Obligated Balance:
   Obligated Balance, Net - Brought Forward, October 1
        Unpaid Obligations, Gross                                                    $        1,051,944    $   1,185,212
        Less: Uncollected Customer Payments from Federal Sources                                 10,882            6,345
            Total Obligated Balance, Net - Brought Forward, October 1                         1,041,062        1,178,867
   Obligations Incurred                                                                       7,164,861        6,770,613
   Less: Outlays, Gross                                                                       7,324,472        6,899,342
   Change in Uncollected Customer Payments from Federal Sources                                     844           (4,537)
   Less: Recoveries of Prior Year Unpaid Obligations                                             23,388            4,539

    Obligated Balance, Net - End of Period
        Unpaid Obligations, Gross                                                               868,945        1,051,944
        Less: Uncollected Customer Payments from Federal Sources                                 10,038           10,882
    Total Obligated Balance, Net - End of Period                                     $          858,907    $   1,041,062

Budgetary Authority and Outlays, Net:
   Budgetary Authority, Gross (discretionary and mandatory)                                   7,159,437        6,769,815
   Less: Actual Offsetting Collections (discretionary and mandatory)                            562,700          383,911
   Change in Uncollected Customer Payments from Federal Sources                                     844           (4,537)
       (discretionary and mandatory)
   Budget Authority, Net (discretionary and mandatory)                               $        6,597,581    $   6,381,367

    Outlays, Gross (discretionary and mandatory)                                     $        7,324,472    $   6,899,342
    Less: Actual Offsetting Collections (discretionary and mandatory)                           562,700          383,911
    Outlays, Net (discretionary and mandatory)                                                6,761,772        6,515,431
    Less: Distributed Offsetting Receipts                                                         5,452            3,306
    Agency Outlays, Net (discretionary and mandatory)                                $        6,756,320    $   6,512,125




  U.S. Department of Justice
                           The accompanying notes are an integral part of these financial statements.

                                                             - 32 -
                                   Bureau of Prisons

                      Notes to the Principal Financial Statements

                           (Dollars in Thousands, Except as Noted)


1.    Summary of Significant Accounting Policies

A.    Reporting Entity

The U.S. Federal Bureau of Prisons (BOP) is a reporting entity under the Department of Justice
(DOJ) and encompasses the appropriated activities of the BOP, as well as the activities of the
Trust Fund. It does not include the Federal Prison Industries, Inc. (FPI) (also called UNICOR),
which is a separate reporting component under the DOJ.

BOP
The BOP protects society by confining offenders in the controlled environments of prisons and
community-based facilities that are safe, humane, cost-efficient, and appropriately secure, and
that provide work and other self-improvement opportunities to assist offenders in becoming
law-abiding citizens.

Trust Fund
The Trust Fund was created by two DOJ Orders, No. 2126 on April 1, 1930, and No. 2244 on
January 1, 1932. The Trust Fund operates the Commissary to provide inmates with the
opportunity to procure merchandise and services not ordinarily provided by the BOP. The Trust
Fund is a self-sustaining trust revolving fund account that is funded through the sale of goods
and services to inmates.

B.    Basis of Presentation

These financial statements have been prepared to report the financial position and results of
operations of the BOP as required by the Government Management Reform Act of 1994, Public
Law 103-356, 108, Stat. 3515. These financial statements have been prepared from the books
and records of the BOP in accordance with United States generally accepted accounting
principles (GAAP) issued by the Federal Accounting Standards Advisory Board (FASAB) and
presentation guidelines in the Office of Management and Budget (OMB) Circular A-136,
“Financial Reporting Requirements.” These financial statements are different from the financial
reports prepared pursuant to OMB directives which are used to monitor and control the use of the
BOP budgetary resources. To ensure that the BOP financial statements are meaningful at the
entity level and to enhance reporting consistency within the Department, Other Assets and Other
Liabilities as defined by OMB Circular A-136 have been disaggregated on the balance sheet.
These include Advances and Prepayments, Accrued Federal Employees’ Compensation Act
(FECA) Liabilities, Accrued Payroll and Benefits, Accrued Annual and Compensatory Leave
Liabilities, Deferred Revenue, Contingent Liabilities and Capital Lease Liabilities.

     U.S. Department of Justice
                          These notes are an integral part of these financial statements.
                                                    - 33 -
1.    Summary of Significant Accounting Policies (continued)

C.    Basis of Consolidation

The consolidated/combined financial statements include the accounts of the BOP. All significant
proprietary intra-entity transactions and balances have been eliminated in consolidation. The
Statements of Budgetary Resources are combined statements for the fiscal years ended
September 30, 2012, and 2011 and as such, intra-entity transactions have not been eliminated.

D.    Basis of Accounting

The financial statements have been prepared and transactions have been recorded on an accrual
and budgetary bases of accounting. Under the accrual basis, revenues are recorded when earned
and expenses are recorded when incurred, regardless of when cash is exchanged. Under the
budgetary basis, however, funds availability is recorded based upon legal considerations and
constraints. As a result, certain line items on the proprietary financial statements may not equal
similar line items on the budgetary financial statements.

These statements were prepared in accordance with GAAP. GAAP for Federal entities are the
standards prescribed by the FASAB, which is designated as the official accounting standards-
setting body for the Federal Government by the American Institute of Certified Public
Accountants. The Statements of Federal Financial Accounting Standards (SFFAS) that were in
effect as of September 30, 2012, were followed in the preparation of these financial statements.

E.    Non-Entity Assets

A portion of the BOP’s Fund Balance with the U.S. Treasury (Treasury) and Accounts
Receivable is accounted for as a Non-Entity Asset and disclosed in Note 2. Non-Entity assets
are assets held by the BOP but are not available for use by the BOP. The majority of non-entity
assets are comprised of prisoner monies held in trust by the Treasury. This amount also includes
certain receivables and receipts of cash that are in suspense, clearing, deposit, or general fund
accounts. These transactions were processed by commercial banks for deposit to fund accounts
maintained at the Treasury.

F.    Fund Balance with U.S. Treasury and Cash

Funds with the Treasury represent appropriated and trust funds available to pay current liabilities
and finance future authorized purchases. Certain receipts are processed by commercial banks for
deposit to the BOP appropriation or fund accounts. In addition, the BOP has been granted and
maintains imprest funds at many locations that are also included in the BOP’s cash balance.




     U.S. Department of Justice
                          These notes are an integral part of these financial statements.
                                                    - 34 -
1.    Summary of Significant Accounting Policies (continued)

G.    Investments

The Federal Government does not set aside assets to pay future benefits or other expenditures
associated with the Trust Fund. The cash receipts collected from the public for an earmarked
fund are deposited in the Treasury, which uses the cash for general Government purposes.
Treasury securities are an asset to the BOP and a liability to the Treasury. Because the BOP and
the Treasury are both parts of the Government, these assets and liabilities offset each other from
the standpoint of the Government as a whole. For this reason, they do not represent an asset or a
liability in the U.S. Government-wide financial statements.

Treasury securities provide the BOP with authority to draw upon the Treasury to make future
benefit payments or other expenditures. When the BOP requires redemption of these securities
to make expenditures, the Government finances those expenditures out of accumulated cash
balances, by raising taxes or other receipts, by borrowing from the public or repaying less debt,
or by curtailing other expenditures. This is the same way that the Government finances all other
expenditures.

Beginning in fiscal year 1995, the Trust Fund was granted authority (Public Law 103-317,
Section 107) to invest funds in excess of operating needs in securities guaranteed by the
Treasury. In November 1994, the Trust Fund began participating in the Federal Investment
Counseling Program through the Treasury. The Treasury charges no commissions or transaction
fees for participating in the program. Investments are made in any Federal Treasury security
available to the public. The amount and length of investments are determined after careful
review of cash balances available to defray outstanding payables and other liabilities.

Investments in U.S. Government securities are reported at cost net of amortized discounts.
Discounts are amortized into interest income over the term of the investment. The Trust Fund’s
intent is to hold investments to maturity, unless they are needed to sustain the operations of the
Trust Fund. No provision is made for unrealized gains or losses on these securities because, in
the majority of cases, they are held to maturity. The interest received on these securities is
captured in the Trust Fund and is used to defray its general operating expenses.




     U.S. Department of Justice
                          These notes are an integral part of these financial statements.
                                                    - 35 -
1.    Summary of Significant Accounting Policies (continued)

H.    Accounts Receivable

Accounts receivable are largely comprised of receivables with the Public. Net accounts
receivable includes reimbursement and refund receivables due from Federal agencies and others,
less the allowance for uncollectible accounts. The BOP establishes an allowance for
uncollectible accounts when it is more likely than not that the accounts receivable will not be
collected.

The allowance for uncollectible amounts is estimated by analyzing all individual accounts
receivables. Loss estimation is based on the debtor’s ability to pay, payment record, willingness
to pay, and the probable recovery of amounts from secondary sources.

I.    Inventory and Related Property

The Trust Fund Commissary inventories are comprised of merchandise on hand at 96 reporting
sites located in the United States and Puerto Rico. Inventories consist of merchandise that is
either not normally provided by the BOP or are of a different quality than is regularly issued.
Inventory sales are restricted to inmates and consist primarily of foods and beverages, hobby
craft items, stamps, clothing, health and hygiene commodities, and other sundry items.

The Trust Fund Commissary inventories are stated at latest acquisition cost, which is adjusted
using the Consumer Price Index (CPI) for the year to approximate the value of the inventory
under the First-In-First-Out (FIFO) accounting methodology.

J.    General Property, Plant and Equipment

The BOP owns the majority of land and buildings in which it operates and capitalizes them on its
records. Real property is capitalized based upon the total acquisition cost. Depreciation is
applied to program areas based upon the percentage of space occupied. Real property
acquisitions equal to or greater than $100 thousand are capitalized. Real property acquisitions
are capitalized and depreciated by the automated SENTRY Real Property Management System
(SRPMS).

Personal property acquisitions are capitalized and depreciated by the automated SENTRY
Property Management System (SPMS). Physical inventories are conducted annually and
adjustments are made as necessary. Any equipment with an acquisition cost of less than $5
thousand is expensed when purchased. Assets are depreciated using the straight-line method
over the estimated useful lives of the assets.




     U.S. Department of Justice
                          These notes are an integral part of these financial statements.
                                                    - 36 -
1.    Summary of Significant Accounting Policies (continued)


J.    General Property, Plant and Equipment (continued)


The following chart represents the maximum depreciation years for BOP’s property:


BOP Depreciation Schedule
Buildings                                              30
Equipment                                              10
Leasehold Improvements                                  *
Other Structures & Facilities                          20
Internal Use Software                                   7
Vehicles                                               10
Assets Under Capital Lease                              *
* Depreciation based on the lesser of the lease term or useful life of the asset.


K.    Advances and Prepayments

Advances and prepayments classified as assets of the BOP on the Balance Sheet represent funds
disbursed to individuals and other organizations for which goods or services have not yet been
provided.

This amount also includes the current balance of travel advances, issued to Federal employees in
advance of official travel. Amounts issued are limited to per diem expenses expected to be
incurred by the employees during official travel. For Federal employees who anticipate and plan
for travel, advances are permitted up to 80 percent of per diem. Actual reimbursements are made
at 100 percent of per diem.

The BOP’s amount also includes advances that arise whenever the BOP provides money to state
and local governmental agencies to fund correctional study programs. Advances and
prepayments involving other Federal agencies are classified as other assets on the balance sheet.

L.    Liabilities

Liabilities represent the monies or other resources that are likely to be paid by the BOP as the
result of a transaction or event that has already occurred. However, no liability can be paid by
the BOP absent proper budget authority. Liabilities that are not funded by the current year
appropriation are classified as liabilities not covered by budgetary resources in Note 10.




     U.S. Department of Justice
                           These notes are an integral part of these financial statements.
                                                     - 37 -
1.    Summary of Significant Accounting Policies (continued)

M.    Contingencies and Commitments

Contingencies
The BOP is party to various administrative proceedings, legal actions, and claims related to
contract disputes, employee claims under the Fair Labor Standards Act, and inmate claims under
the Federal Tort Claim Act and other legal matters. These claims are of a nature considered
normal for a government law enforcement agency. In accordance with SFFAS No. 5,
“Accounting for Liabilities of the Federal Government” and SFFAS No. 12, “Recognition of
Contingent liabilities from Litigation,” the BOP has probable and reasonably possible losses
arising from litigation. The balance sheet includes an estimated liability for those legal actions
where management and the Chief Counsel consider adverse decisions “probable” and amounts
are reasonably estimable. Legal actions where management and the Chief Counsel consider
adverse decisions “probable” or “reasonably possible” and the amounts are reasonably estimable
are disclosed in Note 14, Contingencies and Commitments. However, there are cases where
amounts have not been accrued or disclosed because the amounts of the potential loss cannot be
estimated or the likelihood of an unfavorable outcome is “remote.”

N.    Annual, Sick, and Other Leave

Annual and compensatory leave is expensed with an offsetting liability as it is earned and the
corresponding liability is reduced as leave is taken. Each year, the balance in the accrued annual
leave liability account is adjusted to reflect current pay rates. To the extent current or prior year
appropriations are not available to fund annual and compensatory leave earned but not taken,
funding will be obtained from future financing sources.

Sick leave and other types of non-vested leave are expensed as taken.

O.    Interest on Late Payments

Pursuant to the Prompt Payment Act, 31 U.S.C. 3901-3907, Federal agencies must pay interest
on payments for goods or services made to business concerns after the due date. The due date is
generally 30 days after receipt of a proper invoice or acceptance of the goods or services.




     U.S. Department of Justice
                          These notes are an integral part of these financial statements.
                                                    - 38 -
1.    Summary of Significant Accounting Policies (continued)

P.    Retirement Plans

With few exceptions, employees hired before January 1, 1984, are covered by the Civil Service
Retirement System (CSRS) and employees hired after December 31, 1983, are covered by the
Federal Employees Retirement System (FERS).

For employees covered by the CSRS, the BOP contributes 7 percent of the employee’s gross pay
for normal retirement or 7.5 percent for hazardous duty retirement. For employees covered by
the FERS, the BOP contributes 11.9 percent of the employee’s gross pay for normal retirement
or 26.3 percent for hazardous duty retirement. All employees are eligible to contribute to the
Federal Thrift Savings Plan (TSP). For those employees covered by the FERS, a TSP is
automatically established, and the BOP is required to contribute an additional 1 percent of gross
pay to this plan and match employee contributions up to 4 percent. No matching contributions
are made to the TSPs established by the CSRS employees. The BOP does not report CSRS or
FERS assets, accumulated plan benefits, or unfunded liabilities, if any, which may be applicable
to its employees. Such reporting is the responsibility of the Office of Personnel Management
(OPM).

SFFAS No. 5 requires employing agencies to recognize the cost of pensions and other retirement
benefits during their employees’ active years of service. Refer to Note 17, Imputed Financing
from Costs Absorbed by Others.

Q.    Federal Employee Compensation Benefits

The FECA provides income and medical cost protection to covered Federal civilian employees
injured on the job, employees who have contracted a work-related occupational disease, and
beneficiaries of employees whose death is attributable to a job-related injury or occupational
disease. Claims incurred for benefits for BOP employees under FECA are administered by the
Department of Labor (DOL) and are ultimately paid by the BOP. The total FECA liability
consists of an actuarial and an accrued portion as discussed below.

Actuarial Liability: The DOL calculates the liability of the Federal Government for future
compensation benefits, which includes the expected liability for death, disability, medical, and
other approved costs. This method utilizes historical benefit payment patterns related to a
specified incurred period to predict the ultimate payments related to that period. The projected
annual benefit payments were discounted to present value. The resulting Federal Government
liability was then distributed by the agency. The DOJ portion of this liability includes the
estimated future cost of death benefits, workers’ compensation, medical, and miscellaneous cost
for approved compensation cases for the DOJ employees. The DOJ allocates the liability to the
BOP on the basis of actual payments made to the FECA Special Benefits Fund (SBF) for the
three prior years as compared to the total DOJ payments made over the same period.

     U.S. Department of Justice
                          These notes are an integral part of these financial statements.
                                                    - 39 -
1.    Summary of Significant Accounting Policies (continued)

Q.    Federal Employee Compensation Benefits (continued)

The FECA actuarial liability is recorded for reporting purposes only. This liability constitutes an
extended future estimate of cost, which will not be obligated against budgetary resources until
the fiscal year in which the cost is actually billed to the DOJ.

Accrued Liability: The accrued FECA liability is the difference between the FECA benefits paid
by the FECA SBF and the agency’s actual cash payments to the FECA SBF. For example, the
FECA SBF will pay benefits on behalf of an agency through the current year. However, most
agencies’ actual cash payments during the current year to the FECA SBF will reimburse the
FECA SBF for benefits paid through a prior fiscal year. The difference between these two
amounts is the accrued FECA liability.

R.    Intragovernmental Activity

Intragovernmental costs and exchange revenue represent transactions made between two
reporting entities within the Federal Government. Costs and earned revenues with the public
represent exchange transactions made between the reporting entity and a non-Federal entity. The
classification of revenue or cost as “intragovernmental” or “with the public” is defined on a
transaction-by-transaction basis. The purpose of this classification is to enable the Federal
Government to prepare consolidated financial statements, not to match public and
intragovernmental revenue with the costs incurred to produce public and intragovernmental
revenue.

S.    Revenues and Other Financing Sources

The BOP receives annual, multi-year, and no-year appropriations that may be used, within
statutory limits, for operating and capital expenditures to support its programs. Appropriations
are recognized as budgetary financing sources at the time the related program or administrative
expenses are accrued. Additional amounts are obtained through reimbursements for services and
donated property.

The BOP receives the majority of its exchange revenues for daily care, maintenance, and housing
of State and Local offenders; medical services outside of BOP provided to United States
Marshals Service prisoners; meals provided to the BOP staff; rental of staff housing on
institution premises; utilities used by the FPI; purchase card rebates; and recycling income.




     U.S. Department of Justice
                          These notes are an integral part of these financial statements.
                                                    - 40 -
1.    Summary of Significant Accounting Policies (continued)

S.    Revenues and Other Financing Sources (continued)

The amount billed to house state prisoners is based on the average inmate per capita rate for the
security level of the institution where the prisoner is housed. The price of meal tickets for
institution employees is calculated using the annual per capita cost for providing meals to
inmates. Rental rates for employee housing on institution premises are calculated using the
Regional Survey Method: base rental rates are established by means of a series of economic
models that utilize typical rates for comparable private rental housing in the established
communities nearest to the sites in which the quarters are located. The amount charged for
steam purchased by the FPI is the actual cost incurred by the BOP during the production of the
utility provided. Purchase card rebates are calculated based on productivity and sales. Recycling
income is based on the weight and/or volume of material being recycled.

Trust Fund profits are utilized for continued operations and programs that benefit the inmate
population. The Trust Fund receives no appropriated funds. The Trust Fund receives the
majority of its funding through revenues generated by the sale of merchandise, telephone
services, and electronic messaging through the Trust Fund Limited Inmate Computer System
(TRULINCS). TRULINCS was fully implemented as of February 2011, and provides inmates
with some limited computer access. TRULINCS is funded completely by the Trust Fund
Appropriation. Regular items sold through the institution commissaries are marked-up 30
percent from their per unit cost. They are then rounded to the nearest nickel to determine selling
price. In rare instances when taxes (whether State, Local, or Federal) are included, the per unit
tax amount is added to the marked-up price before rounding. Should the selling price ever
exceed the manufacturer’s printed price, the printed price shall be set even if it is on odd cents.

The Trust Fund also earned other revenue from medical co-payments, vendor commissions, and
recycling income. As of March 2004, friends and family members are able to send money to
inmates electronically. Funds are deposited directly to an inmate’s account within a few hours.
A commission based on transaction volume is received from the vendor. As of October 2005,
inmates pay a $2 per visit co-pay for in-house medical appointments. Twenty-five percent of the
co-pay is retained by the Trust Fund and the other percent is paid to the Office of Justice
Programs Crime Victims Fund. Trust Fund Debit Card Vending has been limited to the sale of
credits through the commissary for services such as copies and the use of washer and dryers.
Trust Fund revenue also includes investment income.

The Trust Fund has deferred revenue for the inmate Telephone System and the TRULINCS,
which include the amount of phone credits and TRU-units purchased by inmates that have not
been used as of September 30, 2012.




     U.S. Department of Justice
                          These notes are an integral part of these financial statements.
                                                    - 41 -
1.    Summary of Significant Accounting Policies (continued)

T.    Earmarked Funds

SFFAS No. 27, “Identifying and Reporting Earmarked Funds,” defines ‘earmarked funds’ as
being financed by specifically identified revenues, often supplemented by other financing
sources, which remain available over time. These specifically identified revenues and other
financing sources are required by statute to be used for designated activities, benefits, or
purposes, and must be accounted for separately from the Government’s general revenues. The
three required criteria for an earmarked fund are:
     1.		 A statute committing the Federal Government to use specifically identified revenues and
          other financing sources only for designated activities, benefits, or purposes;
     2.		 Explicit authority for the earmarked fund to retain revenues and other financing sources
          not used in the current period for future use to finance the designated activities, benefits,
          or purposes; and
     3.		 A requirement to account for and report on the receipt, use, and retention of the revenues
          and other financing sources that distinguishes the earmarked fund from the Government’s
          general revenues.
     The following fund meets the definition of an Earmarked Fund: Trust Fund – 15X8408.

U.    Allocation Transfer of Appropriations

The BOP is a party to allocation transfers with another Federal agency as a transferring (parent)
entity. Allocation transfers are legal delegations by one department of its authority to obligate
budget authority and outlay funds to another department.

Generally, all financial activity related to these allocation transfers (e.g., budget authority,
obligations, outlays) is reported in the financial statements of the parent entity, from which the
underlying legislative authority, appropriations, and budget apportionments are derived.

The BOP allocates funds to the Public Health Service (PHS). The PHS provides a portion of the
medical treatment for Federal inmates. Money is transferred from the BOP to PHS, and is
designated and expended for current year obligations of PHS staff salaries, benefits, and
applicable relocation expenses. The amounts transferred to PHS from the BOP totaled $97
million and $95 million for the fiscal years ended September 30, 2012 and 2011, respectively,
and are not material to PHS, therefore they are included as part of these financial statements.

V.    Tax Exempt Status

As an agency of the Federal Government, the BOP is exempt from all income taxes imposed by
any governing body whether it is a Federal, state, commonwealth, local, or foreign government.

     U.S. Department of Justice
                            These notes are an integral part of these financial statements.
                                                      - 42 -
1.    Summary of Significant Accounting Policies (continued)

W.    Use of Estimates

The preparation of financial statements requires management to make certain estimates and
assumptions that affect the reported amounts of assets and liabilities and the reported amounts of
revenue and expenses during the reporting period. Actual results could differ from those
estimates.

X.    Reclassifications

The FY 2011 financial statements were reclassified to conform to the FY 2012 Departmental
financial statement presentation requirements. Changes to the presentation of the Combined and
Combining Statements of Budgetary Resources were made, in accordance with guidance
provided in OMB Circular A-136, “Financial Reporting Requirements” and as such, activity and
balances reported on the FY 2011 Combined and Combining Statement of Budgetary Resources
have been reclassified to conform to the presentation in the current year. Certain other prior year
amounts have also been reclassified to conform with the current year presentation. The
reclassifications had no material effect on total assets, liabilities, net position, change in net
position or budgetary resources as previously reported.

Y.    Subsequent Events

Subsequent events and transactions occurring after September 30, 2012 through the date of the
auditors’ opinion have been evaluated for potential recognition or disclosure in the financial
statements. The date of the auditors’ opinion also represents the date that the financial statements
were available to be issued.




     U.S. Department of Justice
                          These notes are an integral part of these financial statements.
                                                    - 43 -
2.    Non-Entity Assets

Non-entity assets are assets that are held by an entity but are not available for use by the entity.
Non-entity assets as of September 30, 2012 and 2011 are presented in the following table.


             As of September 30, 2012 and 2011
                                                                             2012                2011
             Intragovernmental
                Fund Balance with U.S. Treasury                         $       51,175       $    48,575

             With the Public
                Accounts Receivable, Net                                            295            2,152
                  Total With the Public                                             295            2,152
                  Total Non-Entity Assets                                       51,470            50,727
                  Total Entity Assets                                     7,746,381            7,845,883
                  Total Assets                                          $ 7,797,851          $ 7,896,610




3.    Fund Balance with U.S. Treasury

The Fund Balance with the Treasury as reported in the financial statements represents the
unexpended cash balances in the BOP’s accounting records for all the BOP Treasury Symbols at
September 30, 2012 and 2011. The fund balances with the Treasury are presented in the
following table.


      As of September 30, 2012 and 2011
                                                                                    2012                2011
      Fund Balances
         Trust Fund                                                         $          86,948      $          80,240
         General Funds                                                              1,167,072              1,339,854
         Other Fund Types                                                              51,175                 48,575
           Total Fund Balances with U.S. Treasury                           $       1,305,195      $       1,468,669

      Status of Fund Balances
          Unobligated Balance - Available                                   $         292,284      $         314,598
          Unobligated Balance - Unavailable                                           103,631                 65,215
          Obligated Balance not yet Disbursed                                         858,907              1,041,062
          Other Funds (With)/Without Budgetary Resources                               50,373                 47,794
            Total Status of Fund Balances                                   $       1,305,195      $       1,468,669




     U.S. Department of Justice
                               These notes are an integral part of these financial statements.
                                                         - 44 -
3.    Fund Balance with U.S. Treasury (continued)

The fund balance with the Treasury as reported in these financial statements and notes have been
adjusted to account for the difference from that reported by the Treasury. The reported balance
in the BOP’s general ledger account, Fund Balance with the Treasury, before any adjustments,
was $790 and $2,460 thousand greater than the actual fund balance reported by the Treasury as
of September 30, 2012 and 2011, respectively. Routinely, two types of differences arise. First,
differences are created between the accounting records of the BOP and the Treasury because of
the timing of transaction inputs corresponding with cash receipts and disbursements. Second,
differences are created by data input errors and remain until the necessary correcting entries are
processed by the BOP’s or the Treasury’s accounting systems. The BOP operates a
decentralized accounting system with 109 agency location codes. Any cause for reconciliation
must be done individually by location.

For the Trust Fund, this amount represents the aggregate balance of the Trust Fund’s cash
accounts with the Treasury under the account symbol 15X8408. This item also represents the
total amount of all obligated and unobligated undisbursed account balances with the Treasury as
reflected in the Trust Fund’s records. The Trust Fund’s general ledger balance for Fund Balance
with the Treasury, before any adjustments, was $500 and $459 thousand greater than the actual
amount reported by each of the BOP’s accounting stations to the Treasury as of September 30,
2012 and 2011, respectively.

The unobligated balance for annual and multi-year budget authority may be used to incur new
obligations for the purpose specified by the appropriation act. Annual and multi-year budget
authority expires at the end of its period of availability. During the first through the fifth expired
years, the unobligated balance becomes unavailable and may be used to adjust obligations and
disbursements that were recorded before the budgetary authority expired or to meet a legitimate
or bona fide need arising in the fiscal year for which the appropriation was made. The
unobligated balance for no-year budget authority may be used to incur obligations indefinitely
for the purpose specified by the appropriation act. No-year budget authority unobligated
balances are still subject to the annual apportionment and allotment process.

The total status of fund balances includes funds without budgetary resources. Other funds
without budgetary resources are composed of prisoner monies held in trust by the Treasury and
certain receivables and receipts of cash that are in suspense, clearing, deposit, or general fund
accounts.




     U.S. Department of Justice
                           These notes are an integral part of these financial statements.
                                                     - 45 -
4.    Cash and Monetary Assets

Cash and Monetary Assets, as reported in the financial statements, represent the total cash and
cash equivalents under the control of the BOP as of September 30, 2012 and 2011, respectively.


           As of September 30, 2012 and 2011
                                                                     2012                    2011
           Cash
              Imprest Funds                                    $             802        $           783



The BOP’s cash account is minimal given that the BOP does not, for the most part, maintain
cash in commercial bank accounts. The BOP’s cash account consists of imprest funds totaling
$802 and $783 thousand as of September 30, 2012 and 2011, respectively. All of the listed
amounts are available to pay current liabilities and finance future authorized purchases.


5.    Investments, Net

The Trust Fund invests in non-marketable market-based Treasury securities issued by the Bureau
of the Public Debt. These securities are available to the public but cannot be resold. These
securities are purchased and redeemed at par value (the value at maturity) exclusively through
the Treasury’s Finance and Funding Branch, see Note 1.G. When securities are purchased, the
investment is recorded at par value. Premiums and/or discounts are amortized through the end of
the reporting period. As of September 30, 2012 and 2011, all Trust Fund security investments
have matured. Therefore, the respective investment balances are zero.




     U.S. Department of Justice
                           These notes are an integral part of these financial statements.
                                                     - 46 -
6.    Accounts Receivable, Net

Accounts Receivable represents the net amounts due to BOP as of September 30, 2012 and 2011,
respectively, as shown in the following table.


               As of September 30, 2012 and 2011
                                                                         2012                     2011
               Intragovernmental
                   Accounts Receivable                              $        3,653        $         3,347


               With the Public
                  Accounts Receivable                                        7,361                 10,498
                  Allowance for Uncollectible Accounts                           -                   (720)
                     Total With the Public                                   7,361                  9,778
                     Total Accounts Receivable, Net                 $       11,014            $    13,125




7.    Inventory and Related Property, Net

The Trust Fund Commissary inventory purchased for resale as of September 30, 2012 and 2011
is presented in the following table.


              As of September 30, 2012 and 2011
                                                                         2012                     2011
              Inventory
                Inventory Purchased for Resale                      $       19,609        $        18,180




     U.S. Department of Justice
                            These notes are an integral part of these financial statements.
                                                      - 47 -
8.     General Property, Plant and Equipment, Net

Property, Plant and Equipment (PP&E), as reported in the financial statements, are recorded at
the acquisition cost net of accumulated depreciation at September 30, 2012 and 2011,
respectively. See Note 1.J for method of depreciation, capitalization thresholds, and useful lives.


     As of September 30, 2012                      Acquisition          Accumulated            Net Book       Useful
                                                      Cost              Depreciation            Value          Life
     Land and Land Rights                        $     170,096         $             -       $     170,096     N/A
     Construction in Progress                          229,151                       -             229,151     N/A
     Buildings, Improvements, and
         Renovations                                9,086,681              (3,878,912)            5,207,769   2-30 yrs
     Other Structures & Facilities                    850,789                (461,837)              388,952    20 yrs
     Vehicles                                         184,371                (113,288)               71,083   6-10 yrs
     Equipment                                        291,635                (169,196)              122,439    10 yrs
     Assets Under Capital Lease                        89,625                 (50,788)               38,837   5-30 yrs
     Leasehold Improvements                            81,960                 (46,161)               35,799   2-20 yrs
     Internal Use Software                             42,326                 (26,230)               16,096    5-7 yrs
     Internal Use Software in Development               6,686                       -                 6,686     N/A
     Total                                       $ 11,033,320          $   (4,746,412)       $    6,286,908




     As of September 30, 2011                      Acquisition          Accumulated            Net Book       Useful
                                                      Cost              Depreciation            Value          Life
     Land and Land Rights                        $     174,827         $             -       $     174,827     N/A
     Construction in Progress                          532,453                       -             532,453     N/A
     Buildings, Improvements, and
         Renovations                                8,603,404              (3,582,926)            5,020,478   2-30 yrs
     Other Structures & Facilities                    814,436                (423,893)              390,543    20 yrs
     Vehicles                                         167,175                (108,635)               58,540   6-10 yrs
     Equipment                                        268,452                (159,355)              109,097    10 yrs
     Assets Under Capital Lease                        89,625                 (47,800)               41,825   5-30 yrs
     Leasehold Improvements                            71,395                 (36,325)               35,070   2-20 yrs
     Internal Use Software                             28,021                 (20,835)                7,186    5-7 yrs
     Internal Use Software in Development              17,462                       -                17,462     N/A
     Total                                       $ 10,767,250          $   (4,379,769)       $    6,387,481



Leasehold improvements reflect capital improvements made to facilities occupied but not owned
by the BOP. Capital improvements made to buildings and other structures owned by the BOP
are reflected as buildings and other structures and facilities. The BOP had capitalized property
purchases from Federal Sources and from the Public. These purchases totaled $17,597 and
$29,768 thousand from Federal Sources, and $282,830 and $398,801 thousand from the Public,
for the fiscal years ended September 30, 2012 and 2011, respectively.


     U.S. Department of Justice
                                These notes are an integral part of these financial statements.
                                                          - 48 -
9.     Other Assets

Intragovernmental other assets include an advance to the United States District Court to initiate
the condemnation proceeding for the acquisition of a prison facility in Illinois. The majority
of other assets with the public consists of farm livestock. The amounts as of September 30, 2012
and 2011 are presented in the following table.


                   As of September 30, 2012 and 2011
                                                                    2012                   2011
                   Intragovernmental
                       Advances and Prepayments               $       165,000        $              -

                   Other Assets With the Public
                      Farm Livestock                          $          4,701       $          4,473




10.    Liabilities Not Covered by Budgetary Resources

Liabilities not covered by budgetary resources are liabilities for which Congressional action is
needed before budgetary resources can be provided. These liabilities as of September 30, 2012
and 2011, respectively, are presented in the following table.


      As of September 30, 2012 and 2011
                                                                                     2012               2011
      Intragovernmental
          Accrued FECA Liabilities                                               $    152,110       $    143,910
          Other Unfunded Employment Related Liabilities                                   761              1,157
          Other                                                                         5,315              3,690
             Total Intragovernmental                                                  158,186            148,757

      With the Public
         Actuarial FECA Liabilities                                                  853,362              761,197
         Accrued Annual and Compensatory Leave Liabilities                           171,739              170,187
         Environmental and Disposal Liabilities (Note 11)                             64,222               62,722
         Contingent Liabilities (Note 14)                                              4,230                8,563
         Capital Lease Liabilties (Note 12)                                           16,627               23,941
         Other                                                                        99,979              122,152
             Total With the Public                                                 1,210,159            1,148,762
             Total Liabilities not Covered by Budgetary Resources                  1,368,345            1,297,519
             Total Liabilities Covered by Budgetary Resources                        619,689              678,172
             Total Liabilities                                                   $ 1,988,034        $   1,975,691




      U.S. Department of Justice
                              These notes are an integral part of these financial statements.
                                                        - 49 -
11.    Environmental and Disposal Liabilities

The BOP operates 118 facilities in over 30 States and Territories and is subject to rigorous
Federal, State, and Local environmental regulations applicable to the facility locations. Per
SFFAS No. 5, SFFAS No. 6, “Accounting for Property, Plant, and Equipment”, and Technical
Release No. 2, “Determining Probable and Reasonably Estimable for Environmental Liabilities
in the Federal Government”, Federal agencies are required to recognize liabilities for
environmental clean-up costs when the future outflow or sacrifice of resources is probable and
reasonably estimable. The BOP exercises due care in determining the presence of contamination
through regularly scheduled testing required by Facilities Management Policy. If, as a result of
the testing, environmental contamination is detected on BOP owned property or on non-BOP
property but BOP is determined to be the agent of the contamination, the BOP will clean up the
contamination as soon as possible. The liability is recognized immediately.

As environmental-related clean-up costs are accomplished, the prior established liability will be
reduced. Additionally, estimates will be revised periodically to account for material changes due
to inflation, deflation, technology, or applicable laws and regulations. Any material changes in
the estimated total clean-up costs will be expensed when re-estimates occur and the liability
balance adjusted.

Firing Ranges
The BOP operates firing ranges on 66 of the sites where its institutions are located. Use of these
firing ranges generates waste consisting primarily of lead shot and spent rounds from rifles,
shotguns, pistols, and automatic weapons. At operational firing ranges, lead-containing bullets
are fired and eventually fall to the ground at or near the range. As of September 30, 2011, BOP
management determined their estimated clean-up liability to be $26,045 thousand. In FY 2012,
BOP management adjusted the estimated clean-up liability by the current U.S. inflation rate as
determined by the U.S. Treasury and as such determined that an estimated firing range clean-up
liability of $26,935 thousand, based on an inflation rate of 1.9 percent, should be recorded. In FY
2012, the liability cost for firing ranges increased $890 thousand.

Asbestos
Section 112 of the Clean Air Act requires the U.S. Environmental Protection Agency (EPA) to
develop and enforce regulations to protect the general public from exposure to airborne
contaminants that are known to be hazardous to human health. On March 31, 1971, the EPA
identified asbestos as a hazardous pollutant, and on April 6, 1973, EPA first promulgated the
Asbestos National Emissions Standards for Hazardous Air Pollutants (NESHAP).




      U.S. Department of Justice
                           These notes are an integral part of these financial statements.
                                                     - 50 -
11.    Environmental and Disposal Liabilities (continued)

The BOP conducted a review of 46 institutions that were built prior to 1980; the review provided
an estimate of the extent of friable and non-friable Asbestos Containing Materials (ACM)
remaining in each of the institutions as of October 30, 2009. As of September 30, 2011, BOP
management determined their estimated clean-up liability to be $36,677 thousand. In FY 2012,
BOP Management decreased the clean-up liability in the amount of $68 thousand for the
abatement of asbestos at two locations. In addition, BOP Management increased the clean-up
liability in the amount of $678 thousand by the current US inflation rate of 1.9 percent as
determined by the US Treasury. In FY 2012, BOP management recorded a clean-up liability in
the amount of $37,287 thousand, a $610 thousand increase in liability cost for asbestos from the
previous year.


12.    Leases

Capital Leases

The tables that follow represent a 25-year capital lease for a Federal Transfer Center in
Oklahoma City. The lease agreement, which will expire in fiscal year 2019, calls for semi-
annual payments of $4.5 million for 20 years; the remaining five years (lease years 21 through
25) will be land rental payments only. The BOP paid a total of $9.1 million in payments during
the fiscal year ended September 30, 2012.


           As of September 30, 2012 and 2011

           Capital Leases                                                 2012                    2011

           Summary of Assets Under Capital Lease
              Land and Buildings                                     $       89,625           $     89,625
              Accumulated Amortization                                      (50,788)               (47,800)
                 Total Assets Under Capital Lease (Note 8)           $       38,837           $     41,825




      U.S. Department of Justice
                            These notes are an integral part of these financial statements.
                                                      - 51 -
12.    Leases (continued)

Future Capital Lease Payments


          Future Capital Lease Payments Due
                                                                                                    Land and
             Fiscal Year                                                                            Buildings
                 2013                                                                           $         9,073
                 2014                                                                                     9,073
                 2015                                                                                         32
                 2016                                                                                         32
                 2017                                                                                         32
                 After 2017                                                                                   64
                  Total Future Capital Lease Payments                                           $        18,306
             Less: Imputed Interest                                                                      (1,679)
                 FY 2012 Net Capital Lease Liabilities                                          $        16,627
                 FY 2011 Net Capital Lease Liabilities                                          $        23,941

                                                                                 2012                 2011
          Net Capital Lease Liabilities not Covered by
             Budgetary Resources                                           $        16,627      $       23,941




      U.S. Department of Justice
                              These notes are an integral part of these financial statements.
                                                        - 52 -
13.    Other Liabilities

Other liabilities as of September 30, 2012 and 2011, totaled $229 million and $246 million,
respectively. The majority of Intragovernmental Other Liabilities are composed of tenant
allowances for operating leases, monies received from prisoner funds, and certain receipts of
cash that are in suspense, clearing, deposit, or general fund accounts that are owed to the
Treasury. Other Liabilities With the Public are composed of future funded energy savings
performance contracts and utilities. All other liabilities are current and are presented in the
following table.


       As of September 30, 2012 and 2011
                                                                                  2012              2011
       Intragovernmental
           Employer Contributions and Payroll Taxes Payable                  $       61,563     $     59,333
           Other Post-Employment Benefits Due and Payable                               965            2,408
           Other Unfunded Employment Related Liabilities                                761            1,157
           Advances from Others                                                         274              667
           Other Liabilities                                                          5,585            5,799
             Total Intragovernmental                                                 69,148           69,364

       With the Public
          Other Accrued Liabilities                                                   5,933            5,613
          Advances from Others                                                        8,202            5,837
          Liability for Nonfiduciary Deposit Funds
           and Undeposited Collections                                               51,199           48,617
          Other Liabilities                                                          94,046          116,539
             Total With the Public                                                  159,380          176,606
             Total Other Liabilities                                         $      228,528     $    245,970




      U.S. Department of Justice
                              These notes are an integral part of these financial statements.
                                                        - 53 -
14.    Contingencies and Commitments

Contingencies include various administrative proceedings, legal actions, and claims related to
contract disputes and employee and inmate claims; see Note 1.M for more details. For legal
actions where management and the Chief Counsel consider adverse decisions “probable” or
“reasonably possible” and the amounts are reasonably estimable, information is disclosed below.
The amounts as of September 30, 2012 and 2011 are presented in the following table.


                                                    Accrued                      Estimated Range of Loss
                                                   Liabilities                   Lower            Upper
         As of September 30, 2012
              Probable                         $         4,230               $        4,230   $     10,570
              Reasonably Possible                                                     8,229         20,261

         As of September 30, 2011
              Probable                         $         8,563               $       8,563    $     15,490
              Reasonably Possible                                                   16,378          38,141




15.    Earmarked Funds

The Trust Fund is a self-sustaining trust revolving fund account that is funded through the sale of
goods and services to inmates. The Trust Fund receives no appropriated funds, and the majority
of its funding is through revenues generated by the sale of merchandise, telephone services, and
electronic messaging to inmates. Regular items sold through institution commissaries are
marked-up 30 percent from their per unit cost. The Trust Fund Commissary inventories are
comprised of merchandise on-hand at reporting sites located in the United States and Puerto
Rico. Inventory sales are restricted to inmates and consist primarily of foods and beverages,
hobby craft items, stamps, clothing, health and hygiene commodities, and other sundry items.
Commissary items are stated at latest acquisition cost, which is adjusted using the CPI for the
year to approximate the value of the inventory under the FIFO accounting methodology.

Cash receipts collected from the public for an earmarked fund are deposited in the Treasury,
which uses the cash for general Government purposes. The Trust Fund invests in non-
marketable market-based Treasury securities issued by the Bureau of Public Debt. These
securities are available to the public but cannot be resold. These securities are purchased and
redeemed at par value (the value at maturity) exclusively through the Treasury’s Finance and
Funding Branch. When securities are purchased, the investment is recorded at par value.




      U.S. Department of Justice
                            These notes are an integral part of these financial statements.
                                                       - 54 -
15.    Earmarked Funds (continued)

Beginning in 1995, the Trust Fund was granted authority to invest funds in excess of operating
needs in securities guaranteed by the Treasury. Investments in U.S. Government securities are
reported at cost net of amortized discounts. Discounts are amortized into interest income over
the term of the investment. The Trust Fund’s intent is to hold investments to maturity, unless
they are needed to sustain the operations of the Trust Fund. Interest received on securities is
captured in the Trust Fund and is used to defray its general operating expenses. The following
table shows earmarked funds as of September 30, 2012 and 2011.


             As of September 30, 2012 and 2011
                                                                                2012                 2011
                                                                            Trust Fund           Trust Fund
             Balance Sheet
             Assets
                Fund Balance with U.S. Treasury                           $       86,948         $    80,240
                Other Assets                                                      27,298              27,572
                   Total Assets                                           $      114,246         $   107,812

              Liabilities
                 Accounts Payable                                         $       14,775         $    11,131
                 Other Liabilities                                                13,259              13,124
                     Total Liabilities                                    $       28,034         $    24,255

              Net Position
                 Cumulative Results of Operations                         $       86,212         $    83,557
                    Total Net Position                                    $       86,212         $    83,557
                    Total Liabilities and Net Position                    $      114,246         $   107,812

              Statement of Net Cost
                 Gross Cost of Operations                                 $      361,981         $   332,106
                 Less: Earned Revenue                                            360,290             341,176
                    Net Cost of Operations                                $        1,691         $    (9,070)

              Statement of Changes in Net Position
                 Net Position Beginning of Period                         $       83,557         $    69,853

                 Other Financing Sources                                           4,346               4,634
                    Total Financing Sources                                        4,346               4,634
                 Net Cost of Operations                                           (1,691)              9,070
                 Net Change                                                        2,655              13,704
                 Net Position at End of Period                            $       86,212         $    83,557




      U.S. Department of Justice
                               These notes are an integral part of these financial statements.
                                                         - 55 -
16.    Net Cost of Operations by Suborganization

The following tables show the net cost of operations for each of the BOP’s goals by
suborganization for the fiscal years ended September 30, 2012 and 2011.

c For the Fiscal Year Ended September 30, 2012
                                                                     Suborganizations
                                                             Trust Fund              BOP                   Consolidated

 Goal 2: Prevent Crime, Protect the Rights of the American People, and Enforce Federal Law

      Gross Cost                                         $               -      $            7,242     $            7,242
      Less: Earned Revenue                                               -                       -                      -
      Net Cost of Operations                                             -                   7,242                  7,242

 Goal 3: Ensure and Support the Fair, Impartial, Efficient, and Transparent Administration of Justice at the Federal,
        State, Local, Tribal, and International Levels

      Gross Cost                                                  361,981               7,137,596               7,499,577
      Less: Earned Revenue                                        360,290                  50,015                 410,305
      Net Cost of Operations                                        1,691               7,087,581               7,089,272

 Net Cost of Operations                                  $          1,691       $       7,094,823      $        7,096,514


 For the Fiscal Year Ended September 30, 2011
                                                                     Suborganizations
                                                             Trust Fund              BOP                   Consolidated

 Goal 2: Prevent Crime, Protect the Rights of the American People, and Enforce Federal Law

      Gross Cost                                         $               -      $            6,613     $            6,613
      Less: Earned Revenue                                               -                       -                      -
      Net Cost of Operations                                             -                   6,613                  6,613

 Goal 3: Ensure and Support the Fair, Impartial, Efficient, and Transparent Administration of Justice at the Federal,
        State, Local, Tribal, and International Levels

      Gross Cost                                                  332,106               6,881,259               7,213,365
      Less: Earned Revenue                                        341,176                  44,500                 385,676
      Net Cost of Operations                                       (9,070)              6,836,759               6,827,689

 Net Cost of Operations                                  $         (9,070)      $       6,843,372      $        6,834,302




      U.S. Department of Justice
                                 These notes are an integral part of these financial statements.
                                                             - 56 -
17.    Imputed Financing from Costs Absorbed by Others

Imputed Inter-Departmental Financing Sources are the unreimbursed (i.e. non-reimbursed
and under-reimbursed) portion of the full costs of goods and services received by the BOP from
a providing entity that is not part of the DOJ. In accordance with SFFAS No. 30, “Inter-Entity
Cost Implementation Amending SFFAS 4, Managerial Cost Accounting Standards and
Concepts”, the material Imputed Inter-Departmental financing sources recognized by the BOP
are the cost of benefits for the Federal Employees Health Benefits Program (FEHB), the Federal
Employees’ Group Life Insurance Program (FEGLI), the Federal Pension plans that are paid by
other Federal entities, and any un-reimbursed payments made from the Treasury Judgment Fund
on behalf of the BOP. The Treasury Judgment Fund was established by the Congress and funded
at 31 U.S.C. 1304 to pay in whole or in part the court judgments and settlement agreements
negotiated by the Department on behalf of agencies, as well as certain types of administrative
awards. Interpretation of Federal Financial Accounting Standards Interpretation No. 2,
“Accounting for Treasury Judgment Fund Transactions,” requires agencies to recognize
liabilities and expenses when unfavorable litigation outcomes are probable and the amount can
be estimated and will be paid by the Treasury Judgment Fund.

SFFAS No. 5, “Accounting for Liabilities of the Federal Government,” requires that employing
agencies recognize the cost of pensions and other retirement benefits during their employees’
active years of service. SFFAS No. 5 requires OPM to provide cost factors necessary to
calculate cost. OPM actuaries calculate the value of pension benefits expected to be paid in the
future, and then determine the total funds to be contributed by and for covered employees, such
that the amount calculated would be sufficient to fund the projected pension benefits. For
employees covered by CSRS, the cost factors are 29.8 percent of basic pay for regular, 50.9
percent law enforcement officers, 23.2 percent regular offset, and 45.2 percent law enforcement
officers offset. For employees covered by FERS, the cost factors are 13.7 percent of basic pay
for regular and 29.7 percent for law enforcement officers.

The cost to be paid by other agencies is the total calculated future costs, less employee and
employer contributions. In addition, the cost of other retirement benefits, which include health
and life insurance that are paid by other Federal entities, must also be disclosed.




      U.S. Department of Justice
                           These notes are an integral part of these financial statements.
                                                     - 57 -
17.     Imputed Financing from Costs Absorbed by Others (continued)

Imputed Intra-Departmental Financing Sources as defined in SFFAS No. 4, “Managerial
Cost Accounting Concepts and Standards for the Federal Government,” and FASAB
Interpretation No. 6, “Accounting for Imputed Intra-Departmental Costs: An Interpretation of
SFFAS No. 4,” are the unreimbursed portion of the full costs of goods and services received by
the BOP from a providing entity that is part of the DOJ. Recognition is required for those
transactions determined to be material to the receiving entity. The determination of whether the
cost is material requires considerable judgment based on the specific facts and circumstances of
each type of good or service provided. SFFAS No. 4 also states that costs for broad and general
support need not be recognized by the receiving entity, unless such services form a vital and
integral part of the operations or output of the receiving entity. Costs are considered broad and
general if they are provided to many, if not all, reporting components and not specifically related
to the receiving entity’s output. In accordance with FASAB Interpretation No. 6, the BOP
management reviews Imputed Intra-Departmental Financing Sources quarterly to determine
materiality. As of September 30, 2012 these costs are deemed immaterial and are not reported.


      For the Fiscal Years Ended September 30, 2012 and 2011
                                                                               2012                  2011
      Imputed Inter-Departmental Financing
         Treasury Judgment Fund                                       $              5,597       $        5,367
         Health Insurance                                                          176,828              183,388
         Life Insurance                                                                460                  460
         Pension                                                                    55,133               73,309
            Total Imputed Inter-Departmental                          $            238,018       $      262,524
            Total Imputed Financing                                   $            238,018       $      262,524




18.     Information Related to the Statement of Budgetary Resources

Apportionment Categories of Obligations Incurred:

The apportionment categories are determined in accordance with the guidance provided in Part 4
“Instructions on Budget Execution” of OMB Circular A-11, “Preparation, Submission and
Execution of the Budget”. Category A represents resources apportioned for calendar quarters.




      U.S. Department of Justice
                               These notes are an integral part of these financial statements.
                                                         - 58 -
18.    Information Related to the Statement of Budgetary Resources (continued)

                                                                                                             Total
                                                                  Direct            Reimbursable          Obligations
                                                                Obligations          Obligations           Incurred
   For the Fiscal Year Ended September 30, 2012
       Obligations Apportioned Under
          Category A                                           $ 6,963,830          $     201,031        $ 7,164,861

   For the Fiscal Year Ended September 30, 2011
       Obligations Apportioned Under
          Category A                                           $ 6,725,968          $         44,645     $ 6,770,613




Status of Undelivered Orders:

Undelivered Orders (UDO) represent the amount of goods and/or services ordered, which have
not been actually or constructively received. This amount includes any orders which may have
been prepaid or advanced but for which delivery or performance has not yet occurred.


              As of September 30, 2012 and 2011

                                                                         2012                     2011
                     UDO Obligations Unpaid                        $      311,154             $    432,938
                     UDO Obligations Prepaid/Advanced                     163,748                      (733)
                         Total UDO                                 $      474,902             $    432,205



Permanent Indefinite Appropriations:

A permanent indefinite appropriation is open-ended as to both its period of availability (amount
of time the agency has to spend the funds) and its amount.

Congress established the Trust Fund in 1932 to allow inmates a means to purchase additional
products and services above the necessities provided by appropriated Federal funds. The Trust
Fund is a self-sustaining trust revolving fund account that is funded through sales of goods and
services, rather than annual or no-year appropriations.




      U.S. Department of Justice
                            These notes are an integral part of these financial statements.
                                                      - 59 -
18.     Information Related to the Statement of Budgetary Resources (continued)

Legal Arrangements Affecting Use of Unobligated Balances:

Unobligated balances represent the cumulative amount of budget authority that is not obligated
and that remains available for obligation based on annual legislative requirements and other
enabling authorities, unless otherwise restricted. The use of unobligated balances is restricted
based on annual legislation requirements and other enabling authorities. Funds are appropriated
on an annual, multi-year, and no-year basis. Appropriated funds shall expire on the last day of
availability and are no longer available for new obligations. Unobligated balances in unexpired
fund symbols are available in the next fiscal year for new obligations unless some restrictions
had been placed on those funds by law. Amounts in expired fund symbols are not available for
new obligations, but may be used to adjust previously established obligations.

Statement of Budgetary Resources vs. the Budget of the United States Government:

The reconciliation between the Statement of Budgetary Resources and the Budget of the United
States Government for fiscal year 2011 is shown in the following table. The reconciliation as of
September 30, 2012 is not presented, because the submission of the Budget of the United States
Government (Budget) for FY 2014, which presents the execution of the FY 2012 Budget, occurs
after publication of these financial statements. The Department of Justice Budget Appendix can
be found on the OMB website (http://www.whitehouse.gov/omb/budget) and will be available in
early February 2013.


  For the Fiscal Year Ended September 30, 2011
      (Dollars in millions)
                                                                                                   Distributed
                                                         Budgetary           Obligations           Offsetting             Net
                                                         Resources              Incurred               Receipts       Outlays
  Statement of Budgetary Resources (SBR)                 $     7,150        $       6,771          $          3       $   6,512


  Funds not Reported in the Budget
                 Expired Funds                                   (71)                  (6)                        -             -
                 Reconciling Item 153220(ZX)                        -                      -                  (3)               3


  Other (Rounding)                                                 1                       -                      -             -


  Budget of the United States Government                 $     7,080        $       6,765          $              -   $   6,515




      U.S. Department of Justice
                                 These notes are an integral part of these financial statements.
                                                             - 60 -
19.    Reconciliation of Net Cost of Operations (proprietary) to Budget (formerly the
       Statement of Financing)

For the Fiscal Years Ended September 30, 2012 and 2011
                                                                                       2012                   2011

Resources Used to Finance Activities

   Budgetary Resources Obligated
     Obligations Incurred                                                     $            7,164,861      $      6,770,613
     Less: Spending Authority from Offsetting Collections and
            Recoveries                                                                       585,244               392,987
     Obligations Net of Offsetting Collections and Recoveries                              6,579,617             6,377,626
     Less: Offsetting Receipts                                                                 5,452                 3,306
     Net Obligations                                                                       6,574,165             6,374,320

   Other Resources
      Donations and Forfeitures of Property                                                       30                   226
      Transfers-In/Out Without Reimbursement                                                 151,645                 1,413
      Imputed Financing from Costs Absorbed by Others (Note 17)                              238,018               262,524
      Net Other Resources Used to Finance Activities                                         389,693               264,163
Total Resources Used to Finance Activities                                                 6,963,858             6,638,483


Resources Used to Finance Items not Part of the Net Cost of
   Operations
      Net Change in Budgetary Resources Obligated for Goods, Services,
         and Benefits Ordered but not Yet Provided                                             (42,540)              138,188
      Resources That Fund Expenses Recognized in Prior Periods (Note 20)                       (32,591)               (6,762)
      Budgetary Offsetting Collections and Receipts That do not
         Affect Net Cost of Operations                                                           5,452                  3,306
      Resources That Finance the Acquisition of Assets                                        (302,363)              (430,370)
Total Resources Used to Finance Items not Part of the Net Cost
   of Operations                                                                              (372,042)              (295,638)

Total Resources Used to Finance Net Cost of Operations                        $            6,591,816      $      6,342,845


Components of Net Cost of Operations That Will not Require
  or Generate Resources in the Current Period

   Components That Will Require or Generate Resources
     in Future Periods (Note 20)                                              $               103,417     $          115,361

   Depreciation and Amortization                                                              392,982                373,138
   Revaluation of Assets or Liabilities                                                         8,299                  2,958
Total Components of Net Cost of Operations That Will not
   Require or Generate Resources in the Current Period                                        504,698                491,457

Net Cost of Operations                                                        $            7,096,514      $      6,834,302




      U.S. Department of Justice
                                  These notes are an integral part of these financial statements.
                                                            - 61 -
20. 	 Explanation of Differences Between Liabilities Not Covered by Budgetary Resources
      and Components of Net Cost of Operations Requiring or Generating Resources in
      Future Periods

Liabilities that are not covered by realized budgetary resources and for which there is
no certainty that budgetary authority will be realized, such as the enactment of an appropriation,
are considered liabilities not covered by budgetary resources. These liabilities totaling $1,368
million and $1,298 million on September 30, 2012 and 2011 respectively, are discussed in Note
10, Liabilities not Covered by Budgetary Resources. Decreases in these liabilities result from
current year budgetary resources that were used to fund expenses recognized in prior periods.
Increases in these liabilities represent unfunded expenses that were recognized in the current
period. These increases along with the change in the portion of exchange revenue receivables
from the public, which are not considered budgetary resources until collected, represent
components of current period net cost of operations that will require or generate budgetary
resources in future periods. The changes in liabilities not covered by budgetary resources and
receivables generating resources in future periods are presented in the following table.

The BOP has authority to record budgetary resources for receivables due from the Public, which
mainly consists of state prisoner billings, before the funds are actually collected. For this reason,
the change in Exchange Revenue receivables from the Public is not presented in the following
table.


   For the Fiscal Years Ended September 30, 2012 and 2011
                                                                                            2012                2011
   Resources that Fund Expenses Recognized in Prior Periods
      Other
        Decrease in Contingent Liabilities                                              $         (4,333)   $          -
        Decrease in Unfunded Capital Lease Liabilities                                            (7,314)         (6,762)
        Decrease in Other Unfunded Employment Related Liabilities                                   (396)              -
        Decrease in Other Liabilities                                                            (20,548)              -
          Total Other                                                                            (32,591)         (6,762)
          Total Resources that Fund Expenses Recognized in Prior Periods                $        (32,591)   $     (6,762)

   Components of Net Cost of Operations That Will Require or Generate Resources in Future Periods
     Increase in Accrued Annual and Compensatory Leave Liabilities                  $       1,552           $     1,334
     Increase in Environmental and Disposal Liabilities                                     1,500                   820
     Other
       Increase in Actuarial FECA Liabilities                                              92,165                25,341
       Increase in Accrued FECA Liabilities                                                 8,200                 5,354
       Increase in Contingent Liabilities                                                        -                3,736
       Increase in Other Unfunded Employment Related Liabilities                                 -                  234
       Increase in Other Liabilities                                                             -               78,542
         Total Other                                                                      100,365               113,207
         Total Components of Net Cost of Operations That Will Require
           or Generate Resources in Future Periods                                  $     103,417           $   115,361




    U.S. Department of Justice
                               These notes are an integral part of these financial statements.
                                                         - 62 -
U.S. DEPARTMENT OF JUSTICE


      BUREAU OF PRISONS

      REQUIRED SUPPLEMENTARY
           INFORMATION
            (UNAUDITED)




               - 63 -
This page intentionally left blank.




              - 64 -
The BOP’s deferred maintenance is immaterial. The BOP maintains maintenance schedules to
monitor the condition of its PP&E. Due to health and safety concerns for staff and inmates, the
BOP does not defer necessary maintenance.




  U.S. Department of Justice
                                               - 65 -
                                                                              U.S. Department of Justice

                                                                                   Bureau of Prisons

                                                                        Required Supplementary Information

                                                                    Combining Statement of Budgetary Resources

                                                                      Broken Down by Major Budget Account

                                                                    For the Fiscal Year Ended September 30, 2012





Dollars in Thousands                                                                                                                                   2012
                                                                                      S&E               B&F                TF                  Total
Budgetary Resources:
   Unobligated Balance, Brought Forward, October 1                                $      125,985    $     197,447      $         56,381    $       379,813

   Recoveries of Prior Year Unpaid Obligations                                            23,388                -                 -                 23,388
   Other Changes in Unobligated Balance                                                   (1,862)               -                 -                 (1,862)
   Unobligated Balance from Prior Year Budget Authority, Net                             147,511          197,447            56,381                401,339
   Appropriations (discretionary and mandatory)                                        6,543,581           54,000                 -              6,597,581
   Spending Authority from Offsetting Collections (discretionary and mandatory)           50,551          151,015           360,290                561,856
Total Budgetary Resources                                                         $    6,741,643    $     402,462      $    416,671        $     7,560,776

Status of Budgetary Resources:
    Obligations Incurred                                                               6,528,886          279,076               356,899          7,164,861
    Unobligated Balance, End of Period:
         Apportioned                                                                     109,126          123,386                 -                232,512
         Exempt from Apportionment                                                             -                -            59,772                 59,772
         Unapportioned                                                                   103,631                -                 -                103,631
    Total Unobligated Balance - End of Period                                            212,757          123,386            59,772                395,915
 Total Status of Budgetary Resources:                                             $    6,741,643    $     402,462      $    416,671        $     7,560,776

Change in Obligated Balance:
   Obligated Balance, Net - Brought Forward, October 1
        Unpaid Obligations, Gross                                                 $      805,075    $     221,982      $         24,887    $     1,051,944
        Less: Uncollected Customer Payments from Federal Sources                           9,854                -                 1,028             10,882
            Total Obligated Balance, Net - Brought Forward, October 1                    795,221          221,982                23,859          1,041,062
   Obligations Incurred                                                                6,528,886          279,076               356,899          7,164,861
   Less: Outlays, Gross                                                                6,565,969          404,786               353,717          7,324,472
   Change in Uncollected Customer Payments from Federal Sources                              708                -                   136                844
   Less: Recoveries of Prior Year Unpaid Obligations                                      23,388                -                     -             23,388

    Obligated Balance, Net - End of Period
        Unpaid Obligations, Gross                                                       744,604               96,272            28,069            868,945
        Less: Uncollected Customer Payments from Federal Sources                          9,146                   -                892             10,038
    Total Obligated Balance, Net - End of Period                                  $     735,458     $         96,272   $        27,177     $      858,907

Budgetary Authority and Outlays, Net:
   Budgetary Authority, Gross (discretionary and mandatory)                            6,594,132          205,015               360,290          7,159,437
   Less: Actual Offsetting Collections (discretionary and mandatory)                      51,259          151,015               360,426            562,700
   Change in Uncollected Customer Payments from Federal Sources                              708                -                   136                844
       (discretionary and mandatory)
   Budget Authority, Net (discretionary and mandatory)                            $    6,543,581    $         54,000   $              -    $     6,597,581

    Outlays, Gross (discretionary and mandatory)                                  $    6,565,969    $     404,786      $        353,717    $     7,324,472
    Less: Actual Offsetting Collections (discretionary and mandatory)                     51,259          151,015               360,426            562,700
    Outlays, Net (discretionary and mandatory)                                         6,514,710          253,771                (6,709)         6,761,772
    Less: Distributed Offsetting Receipts                                                  5,452                -                     -              5,452
    Agency Outlays, Net (discretionary and mandatory)                             $    6,509,258    $     253,771      $         (6,709)   $     6,756,320




   U.S. Department of Justice
                                                                                  - 66 -
                                                                              U.S. Department of Justice

                                                                                   Bureau of Prisons

                                                                        Required Supplementary Information

                                                                    Combining Statement of Budgetary Resources

                                                                      Broken Down by Major Budget Account

                                                                    For the Fiscal Year Ended September 30, 2011





Dollars in Thousands                                                                                                                                   2011
                                                                                      S&E               B&F                TF                  Total
Budgetary Resources:
   Unobligated Balance, Brought Forward, October 1                                $      109,103    $     223,773      $         45,030    $       377,906

   Recoveries of Prior Year Unpaid Obligations                                             4,539                -                 -                  4,539
   Other Changes in Unobligated Balance                                                   (1,834)               -                 -                 (1,834)
   Unobligated Balance from Prior Year Budget Authority, Net                             111,808          223,773            45,030                380,611
   Appropriations (discretionary and mandatory)                                        6,282,410           98,957                 -              6,381,367
   Spending Authority from Offsetting Collections (discretionary and mandatory)           47,272                -           341,176                388,448
Total Budgetary Resources                                                         $    6,441,490    $     322,730      $    386,206        $     7,150,426

Status of Budgetary Resources:
    Obligations Incurred                                                               6,315,505          125,283               329,825          6,770,613
    Unobligated Balance, End of Period:
         Apportioned                                                                      60,770          197,447                 -                258,217
         Exempt from Apportionment                                                             -                -            56,381                 56,381
         Unapportioned                                                                    65,215                -                 -                 65,215
    Total Unobligated Balance - End of Period                                            125,985          197,447            56,381                379,813
 Total Status of Budgetary Resources:                                             $    6,441,490    $     322,730      $    386,206        $     7,150,426

Change in Obligated Balance:
   Obligated Balance, Net - Brought Forward, October 1
        Unpaid Obligations, Gross                                                 $      703,133    $     458,635      $         23,444    $     1,185,212
        Less: Uncollected Customer Payments from Federal Sources                           5,197                -                 1,148              6,345
            Total Obligated Balance, Net - Brought Forward, October 1                    697,936          458,635                22,296          1,178,867
   Obligations Incurred                                                                6,315,505          125,283               329,825          6,770,613
   Less: Outlays, Gross                                                                6,209,024          361,936               328,382          6,899,342
   Change in Uncollected Customer Payments from Federal Sources                           (4,657)               -                  120              (4,537)
   Less: Recoveries of Prior Year Unpaid Obligations                                       4,539                -                     -              4,539

    Obligated Balance, Net - End of Period
        Unpaid Obligations, Gross                                                       805,075           221,982               24,887           1,051,944
        Less: Uncollected Customer Payments from Federal Sources                          9,854                 -                1,028              10,882
    Total Obligated Balance, Net - End of Period                                  $     795,221     $     221,982      $        23,859     $     1,041,062

Budgetary Authority and Outlays, Net:
   Budgetary Authority, Gross (discretionary and mandatory)                            6,329,682              98,957            341,176          6,769,815
   Less: Actual Offsetting Collections (discretionary and mandatory)                      42,615                   -            341,296            383,911
   Change in Uncollected Customer Payments from Federal Sources                           (4,657)                  -               120              (4,537)
       (discretionary and mandatory)
   Budget Authority, Net (discretionary and mandatory)                            $    6,282,410    $         98,957   $              -    $     6,381,367

    Outlays, Gross (discretionary and mandatory)                                  $    6,209,024    $     361,936      $        328,382    $     6,899,342
    Less: Actual Offsetting Collections (discretionary and mandatory)                     42,615                -               341,296            383,911
    Outlays, Net (discretionary and mandatory)                                         6,166,409          361,936               (12,914)         6,515,431
    Less: Distributed Offsetting Receipts                                                  3,306                -                     -              3,306
    Agency Outlays, Net (discretionary and mandatory)                             $    6,163,103    $     361,936      $        (12,914)   $     6,512,125




   U.S. Department of Justice
                                                                                  - 67 -
This page intentionally left blank.




              - 68 -
U.S. DEPARTMENT OF JUSTICE


      BUREAU OF PRISONS

   OTHER ACCOMPANYING INFORMATION
            (UNAUDITED)




                - 69 -
This page intentionally left blank.




              - 70 -
                               U.S. Department of Justice

                                    Bureau of Prisons

                            Combined Schedule of Spending

                     For the Fiscal Year Ended September 30, 2012

    Dollars in Thousands                                                 2012

    What Money is Available to Spend?

    Total Resources                                                  $   7,560,776
    Less: Amount Available but Not Agreed to be Spent                      292,284
    Less: Amount Not Available to be Spent                                 103,631
    Total Amounts Agreed to be Spent                                 $   7,164,861



    How was the Money Spent?
    Personnel Compensation and Benefits
               1100        Personnel Compensation                    $   2,604,879
               1200        Personnel Benefits                            1,268,354
               1300        Former Personnel                                  3,081
               2100        Travel & Transportation of Persons               31,863
               2200        Transportation of Things                         13,020
    Contractual Services and Supplies
               2300        Rent, Communications, and Utilities             355,541
               2400        Printing                                          1,257
               2500        Other Services                                2,056,457
               2600        Supplies and Materials                          850,074
    Acquisition of Assets
               3100        Equipment/IT Software                           114,359
               3200        Leasehold Improvements                            1,858
    Grants and Fixed Charges
               4100        Grants                                            6,088
               4200        Special Payments                                 17,274
               4300        Interest and Dividends                              367
    Total Spending                                                       7,324,472
    Amounts Remaining to be Spent                                    $    (159,611)
    Total Amounts Agreed to be Spent                                 $   7,164,861




U.S. Department of Justice
                                             - 71 -
TREASURY SYMBOL MATRIX

   15121060                     Salaries and Expense
   15111060                     Salaries and Expense
   15101060                     Salaries and Expense
   15091060                     Salaries and Expense
   15081060                     Salaries and Expense
   15071060                     Salaries and Expense
   1511/121060                  Salaries and Expense
   1510/111060                  Salaries and Expense
   1509/101060                  Salaries and Expense
   1508/091060                  Salaries and Expense
   1507/081060                  Salaries and Expense
   1506/071060                  Salaries and Expense
   7515121060                   Public Health Services
   7515111060                   Public Health Services
   7515101060                   Public Health Services
   7515091060                   Public Health Services
   7515081060                   Public Health Services
   7515071060                   Public Health Services
   15X1003                      Buildings and Facilities
   15X8408                      Revolving Trust Fund
   15X1060                      Salaries and Expense
   15X6085                      Deposit Fund (Prisoners)
   15X8600                      Violent Crime Reduction Program
   151060                       General Fund (Forfeiture Unclaimed)
   151099                       General Fund (Fines, Penalties, Forfeiture)
   153220                       General Fund (Miscellaneous Receipts)
   151210                       Conscience Fund
   151299                       Gifts to U.S.
   151435                       Miscellaneous Interest Received
   15F3880.10                   Clearing Account (Budget)
   15F3875.10                   Clearing Account (Budget)
   15X6275.10                   Deposit Fund (State/Local Taxes)
   20X1807                      BOP Refund Erroneously Received
   20X6133                      BOP Payment Unclaimed Money
   15_7001                      Elimination Fund
   15_7002                      Elimination Fund




 U.S. Department of Justice
                              - 72 -
PRISONER CAPACITY REQUIREMENTS

The numbers in the chart reflect the additional requested, funded, and partially funded capacity
(number of beds) required for each established facility.

Note that the estimated construction completion dates supplied below are projections, not fixed
dates. Also, once construction is completed at an institution, that institution does not
immediately begin accepting inmates, as there are necessary activation and preparatory
procedures that must be enacted beforehand.
                                     REQUESTED, FUNDED, OR PARTIALLY FUNDED CAPACITY REQUIREMENTS

                                               2013    2014   2015    2016    2017   2018    2019    2020    2021    2022   Total
ADDITIONAL CAPACITY:
FCI Mendota, CA (Medium/Camp)                  552                                                                             552
FCI Berlin, NH (Medium/Camp)                   784      552                                                                  1,336
FCI Aliceville, AL (Secure Female/Low Camp)    700    1,092                                                                  1,792
FCI Hazelton, WV (Medium/Camp)                 114    1,166                                                                  1,280
USP Yazoo City, MS (High/Camp)                 856      360                                                                  1,216
USP Bennettsville, SC (High/Camp)                                                    128     608     480                     1,216
USP Letcher County, KY (High/Camp)                                                   128     608     480                     1,216
FCI Leavenworth, KS (Medium/Camp)                                                    128     728     552                     1,408
FCI Florida (Medium/Camp)                                                                    728     680                     1,408
FCI South Central (Medium/Camp)                                                              128     728     552             1,408
USP South Central (High/Camp)                                                        128     128     480     480             1,216
USP El Reno, OK (High/Camp)                                                                  128     608     480             1,216
USP North Central/Pekin, IL (High/Camp)                                                      128     128     480     480     1,216
USP Southeast (High/Camp)                                                                            128     608     480     1,216
FCI Northeast (Medium/Camp)                                                                          728     680             1,408
FCI South Central (Medium/Camp)                                                                      128     728     552     1,408
FCI Western (Medium/Camp)                                                                            128     728     552     1,408
FCI North Central (Medium/Camp)                                                                                      600       600
USP Mid-Atlantic (High/Camp)                                                                                 128     608       736
USP Western (High/Camp)                                                                                      128     608       736
USP Mid-Atlantic (High/Camp)                                                                                 128     128       256
FCI Northeast (Medium/Camp)                                                                                          728       728
USP South Central (High/Camp)                                                                                        128       128
USP Mid-Atlantic (High/Camp)                                                                                                   -
FCI Southeast (Medium/Camp)                                                                                                    -
FCI South Central (Medium/Camp)                                                                                                -
FCI North Central (Medium/Camp)                                                                                                -
Total                                         3,006   3,170     -       -       -    512    3,184   5,248   5,120   4,864   25,104




This exhibit includes facilities requested, funded, or partially funded capacity requirements
through September 30, 2012.




   U.S. Department of Justice
                                                                     - 73 -
OPERATING LEASES AS OF SEPTEMBER 30, 2012 (IN THOUSANDS)
                                                                                   Total Future
   Operating Lease Identifier                                                       Payments
   230 N First Avenue                                   Phoenix, AZ              $            616
   230 N First Avenue                                   Phoenix, AZ                           313
   255 E Temple Street                                  Los Angeles, CA                        31
   501 I Street                                         Sacramento, CA                        291
   2880 Sunrise Boulevard                               Rancho Cordova, CA                    710
   7338 Shoreline Drive                                 Stockton, CA                        7,060
   324 Horton Plaza                                     San Diego, CA                         813
   9692 Via Excelencia                                  San Diego, CA                         528
   11900 East Cornell Avenue                            Aurora, CO                         19,947
   320 First Street NW                                  Washington, DC                      2,932
   500 First Street NW                                  Washington, DC                     33,340
   200 Constitution Avenue NW                           Washington, DC                        197
   3800 Camp Creek Parkway                              Atlanta, GA                         5,069
   450 S Federal Street                                 Chicago, IL                           714
   5270 S Cicero Avenue                                 Chicago, IL                         3,029
   55 E Monroe Street                                   Chicago, IL                             7
   200 W Adams Street                                   Chicago, IL                             6
   318 S Federal                                        Chicago, IL                         1,298
   Fourth & State Avenue                                Kansas City, KS                     1,872
   302 Sentinel Drive                                   Annapolis Junction, MD              6,485
   300 S Fourth Street                                  Minneapolis, MN                     2,320
   1222 Spruce                                          St. Louis, MO                         381
   36 E Seventh Street                                  Cincinnati, OH                        378
   200 Chestnut Street                                  Philadelphia, PA                    1,067
   1000 Liberty Avenue                                  Pittsburgh, PA                        293
   600 Arch Street                                      Philadelphia, PA                       81
   701 Market Street                                    Philadelphia, PA                      448
   125 S 2nd Street                                     Philadelphia, PA                        2
   701 Broadway                                         Nashville, TN                         276
   701 San Jacinto Street                               Houston, TX                           100
   701 San Jacinto Street                               Houston, TX                           258
   15431 W Vantage Parkway, Suites 200 & 205            Houston, TX                           356
   727 E Durango Boulevard                              San Antonio, TX                     1,435
   4211 Cedar Springs Road                              Dallas, TX                          8,687
   324 S State St                                       Salt Lake City, UT                     57
   Building A, 6810                                     Franconia, VA                         386
   796 N Foxcroft Avenue                                Martinsburg, WV                     2,704
                                                                                 $        104,487


 U.S. Department of Justice

                                               - 74 -
